<html>
<title> - MANAGING SECURITY ASSISTANCE TO SUPPORT FOREIGN POLICY</title>
<body><pre>[Senate Hearing 115-666]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-666

                      MANAGING SECURITY ASSISTANCE 
                       TO SUPPORT FOREIGN POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           SEPTEMBER 26, 2017
                               __________

       Printed for the use of the Committee on Foreign Relations


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-504 PDF                 WASHINGTON : 2019  


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     2


Kaidanow, Hon. Tina S., Acting Assistant Secretary, Bureau of 
  Political-Military Affairs, U.S. Department of State, 
  Washington, DC.................................................     4

    Prepared statement...........................................     7


Harvey, Thomas H. III, Acting Assistant Secretary of Defense for 
  Strategy, Plans, and Capabilities, Office of the Secretary of 
  Defense, U.S. Department of Defense, Washington, DC............    12

    Prepared statement...........................................    13


Hooper, Lieutenant General Charles, USA, Director, Defense 
  Security Cooperation Agency, Washington, DC....................    15

    Prepared statement...........................................    17

              Additional Material Sumitted for the Record

Responses to Additional Questions for the Record Submitted to 
  Thomas H. Harvey and General Charles Hooper by Members of the 
  Committee

    Questions Submitted by Senator Corker........................    39


    Questions Submitted by Senator Cardin........................    40


    Questions Submitted by Senator Menendez......................    44


    Questions Submitted by Senator Young.........................    47


    Questions Submitted by Senator Portman.......................    47





                             (iii)


 
           MANAGING SECURITY ASSISTANCE TO SUPPORT FOREIGN POLICY

                              ----------                              


                           SEPTEMBER 26, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:32 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Johnson, 
Flake, Gardner, Young, Barrasso, Isakson, Portman, Cardin, 
Udall, Murphy, Kaine, Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    If it is not objectionable to members, I think we will 
begin the hearing and, as soon as we have a quorum, go ahead 
and try to pass out the nominees that are before us.
    We thank our witnesses for being here. We thank Ambassador 
Kaidanow, Acting Assistant Secretary Harvey, and General Hooper 
for joining us today.
    This is the committee's second hearing on security 
assistance in just over a year, but it is an issue that has 
been raised during many of our other meetings. This kind of 
assistance is an investment in our own security. We help 
ourselves by helping other nations police their own 
neighborhoods. Which nations we help and how we help them are 
crucial foreign policy decisions.
    Since the 1960s, the law provides that the Secretary of 
State, under the direction of the President, has the 
responsibility for the continuous supervision and general 
direction of economic assistance, military assistance, and 
training programs. We need to be clear on that because our 
security demands that we work across agency lines to develop 
coherent security assistance programs that serve our interests 
and those of our partners.
    While the Defense Department has long played an important 
role in this area, since 9/11 that role has grown enormously in 
size and scope. We cannot tackle the real challenges if we are 
fighting turf wars within other bureaucracies. And while 
teamwork is necessary, it is not enough.
    We need clear goals and a way to keep track of how we are 
doing. Between State and DOD, we are spending about $18 billion 
a year on security sector assistance. As General Hooper said 
the other day, this is not a pickup game. We need 
professionals.
    Last year, Congress consolidated many of the narrow and 
overlapping authorities on the defense side, and it has given 
the Defense Department more flexible and global train and equip 
authority. I was pleased that the measure signed into law 
requires the concurrence of the Secretary of State for these 
activities and encourages both departments to jointly develop 
and plan such programs.
    I would like to hear from our OSD and State witnesses on 
the question of concurrence versus coordination as it pertains 
to security cooperation activities already in progress such as 
the counter-ISIS train and equip.
    At the State Department, significant security assistance 
roles are held by four different functional bureaus, each with 
their own budget, plus all of the regional bureaus. And these 
bureaus report down through four different secretaries, making 
it difficult to see who is in charge. Under this current 
organizational structure, I have concerns about the 
Department's ability to manage its own programs while also 
reviewing and shaping DOD efforts. I hope the redesign plan 
will address this matter, and any insight our witnesses could 
share to that process will be greatly appreciated.
    We have made some progress since we last gathered on this 
topic, and I look forward to hearing from our witnesses on how 
the State Department and the Department of Defense will 
continue their efforts to make these important programs work as 
well as possible.
    With that, I ask our distinguished ranking member, my 
friend, if he would like to make introductory comments.

              STATEMENT OF HON. BENJAMIN CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. I really do 
believe this is one of our most important hearings we have had 
this year, and I thank you very much for doing this because we 
all understand that we are talking about our national security.
    The U.S. law mandates that the Secretary of State supervise 
and oversee all foreign assistance that service that U.S. 
foreign policy. All military and security-related assistance to 
foreign governments and personnel, including military-to-
military programs, are part of the U.S. foreign assistance and 
must serve U.S. foreign policy.
    The Department of Defense has been expanding its security 
assistance activities by leaps and bounds over the last 16 
years. Most of these activities to build foreign countries' 
defense capabilities are necessary and important. We 
acknowledge that.
    My chief concern, however, is that DOD is setting up an 
essentially parallel security assistance structure without 
sufficient State Department oversight, input, and coordination. 
Combine this with the current administration's profoundly 
unwise proposal to slash the Department of State's budget, 
oblique reorganization efforts, and increasing loss of 
experienced personnel, and one could easily see a scenario in 
which the Department of Defense could become the dominant 
source of U.S. security assistance. This shift from State to 
DOD could not only result in dueling foreign policies, it could 
also send a fundamental message that the United States 
considers security relationships over all other U.S. foreign 
policy objectives or concerns, including human rights or good 
governance.
    Last year's National Defense Authorization Act expanded the 
ability of the Department of State to be involved in the actual 
formation of DOD assistance projects in addition to requiring 
the Department's concurrence in their executions. Congress sent 
a clear message that DOD and State must work more closely on 
security assistance projects earlier in the process and to a 
far greater extent than previously. It was good to see this. We 
saw that the members of both the Armed Services and Foreign 
Relations Committee understood the importance of this 
coordination and the lead from the Department of State, and the 
National Defense Authorization Act in fact did carry that out.
    I hope we will hear today that we are doing better 
coordination and cooperation between the two departments and 
that it has been greatly increased. And from what I have heard 
just from the conversations, there is reason to believe that 
that cooperation exists.
    I also have deep concerns about various aspects of our 
security assistance, especially how arms sales are used to 
support our foreign policy. For example, I am concerned about 
the previously proposed arms sales to our increasingly 
problematic NATO ally Turkey. I opposed the sale of semi-
automatic pistols to the Erdogan bodyguard force, the same 
force that viciously beat peaceful protesters in Washington, 
D.C. I am pleased that the sale was effectively canceled last 
week, although I remain perplexed that given the gruesome 
videos of the incident, it took 4 months for the administration 
to cancel the sale.
    More recently, Turkey purchased the Russian anti-aircraft 
system, despite warnings from the U.S. and other NATO 
countries. I believe this is sanctionable under the new Russia 
sanctions act, and I have asked the Secretary of State to 
review this. I would be interested to hear what, if any, 
reviews of the U.S.-Turkey security relationships are underway, 
including assistance and arms sales.
    I look forward to discussing our security relationship with 
Nigeria. I supported a close and supportive security 
relationship to defeat Boko Haram, provided that the Nigerian 
forces we support are in compliance with the Leahy laws and 
broader human rights standards. We have yet to see any 
accountability from Nigeria for the December 2015 Zaria 
massacre by government forces or for the apparently accidental 
air bombing this January of the Rann refugee camp, in which 
over 200 people were killed.
    First and foremost, the U.S. should prioritize assisting 
the Nigerian military with the necessary training, including 
human rights training, improved intelligence and targeting 
capabilities and the ability to conduct an integrated military 
operation to combat the Boko Haram threat.
    Given the Rann incident, I do not see how we can be 
confident that the precision-guided munitions and new aircraft 
provided to the Nigerian military will not be involved in 
future accidental civilian casualties. I encourage the State 
and Defense Departments to formulate a comprehensive strategy 
to address the core weaknesses in the Nigerian military so that 
we may better assist them in their fight against Boko Haram. I 
hope you can provide me--the witnesses--with assurances that 
such strategy is underway.
    I would also like to hear details how U.S. security 
assistance is being used to support U.S. foreign policy and 
security objectives in the Middle East, including the 
resolution of the current internal GCC dispute, and to promote 
the political resolution of the Yemen conflict. I applaud the 
leadership of our chairman on that issue.
    Finally, I understand that the Department of State wants to 
move lethal small arms and light weapons off the U.S. munitions 
list to the Department of Commerce, an action that will 
effectively remove these sales from congressional oversight. I 
am deeply concerned about that. The proposal includes semi-
automatic pistols, assault weapons, and even military sniper 
rifles. As you know, I raised concerns about two proposed small 
arms sales over the last year: the sale of pistols to the 
Turkish bodyguards and 27,000 assault rifles to the Philippine 
national police, which continues to summarily execute its own 
civilians. If these weapons go to Commerce, the Congress and 
this committee will lose all oversight. Had this proposal been 
done earlier, both of these sales could have gone through.
    I, along with Senators Feinstein and Leahy, recently sent a 
letter to the Secretary of State opposing this unwise move. I 
also proposed an amendment to the NDAA to maintain 
congressional oversight and disapproval, and I may pursue this 
measure in other legislative vehicles.
    So, Mr. Chairman, I think we have a lot to talk about 
today. It's certainly one of the principal responsibilities of 
this committee, and I look forward to hearing from our 
witnesses.
    The Chairman. Well, thank you for those comments.
    You see us looking around. We are looking for an eleventh 
Senator. Okay. It is my understanding one Senator is in the 
back and he will step in. So if we could, I would like to 
adjourn the hearing briefly and start the business meeting and 
hopefully move out--actually we have our eleventh here. 
[Recess.]
    The Chairman. We will now move to the hearing.
    Our first witness is Acting Assistant Secretary for 
Political and Military Affairs, Tina Kaidanow, from the State 
Department. We thank you for being back before us and look 
forward to your testimony.
    Our second witness is Mr. Todd Harvey, Acting Assistant 
Secretary of Defense for Strategy, Plans, and Capabilities in 
the Office of the Secretary of Defense.
    Our third witness is General Charles Hooper, Director of 
the Defense Security Cooperation Agency.
    I want to thank all of you for being here. If you could 
summarize your testimony in about 5 minutes, without objection, 
your written testimony will be entered into the record. And if 
you would just begin in the order introduced, we appreciate it. 
Again, thank you.

STATEMENT OF HON. TINA S. KAIDANOW, ACTING ASSISTANT SECRETARY, 
BUREAU OF POLITICAL-MILITARY AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Kaidanow.  Thank you very much. Mr. Chairman, 
Ranking Member Cardin, distinguished members of the committee, 
it is my honor and privilege to come before the committee today 
to discuss the processes and the methods through which the U.S. 
Government provides security sector assistance to our partners 
overseas.
    I am particularly grateful to be joined in this discussion 
by my colleagues and my friends, Acting Assistant Secretary of 
Defense for Strategy, Plans, and Capabilities Todd Harvey and 
Lieutenant General Hooper from the Defense Security Cooperation 
Agency.
    The security assistance effort is a U.S. government-wide 
endeavor. As such, the Department of State interacts 
collaboratively each and every day with the Department of 
Defense in order to formulate and implement critical aspects of 
our assistance policy. We also work together with you, the U.S. 
Congress, and notably with the members and the staff of this 
august committee.
    Security assistance is, in the end, a tool of foreign 
policy, and the committee's oversight of that assistance is 
both welcomed and deeply appreciated by the State Department as 
an essential element of effective foreign policymaking.
    Finally, although not part of our U.S. Government apparatus 
per se, we work exceptionally closely with our foreign partners 
with whom we cultivate a critical set of relationships and 
whose growing military and defense capability matters from the 
standpoint of achieving vital U.S. national security 
objectives, whether encountering terrorism, deterring 
aggression by our mutual adversaries overseas, or pushing back 
against other emergent threats.
    Though it is now some years ago, President Reagan's 1982 
National Security Strategy made the clear and very compelling 
case that security assistance programs are one of the most 
cost-effective means that we have of enhancing the security of 
the United States. Those words, I would argue, are as true 
today as they were back in 1982, although the statutes and the 
processes through which American security assistance is carried 
out have changed significantly since that time.
    Since 2001, in particular, we have seen a reorientation of 
U.S. security towards addressing specific threats, often 
construed in a largely military-related construct. For example, 
funds and authorities have been aimed at helping our allies and 
friends address security challenges in Eastern Europe, in North 
Africa in the Maghreb, in the South China Sea, and elsewhere.
    But at its core, security assistance is and must remain an 
element of our larger foreign policy. It should be regarded as 
an important, but by no means exclusive, tool in our toolkit of 
measures as we think about the proper balance of goals and 
objectives in any country or region of the world.
    Given the unquestioned relationship between security 
assistance and foreign policy, the Department of State must 
continue to play a crucial role in the provision and the 
coordination of such assistance across the U.S. Government. 
State works, I hope, diligently to ensure that all security 
sector assistance strategically advances our foreign policy 
objectives, that it advances U.S. goals in light of broader 
diplomatic and defense relationships, that everything the many 
and varied entities of the U.S. Government are doing in the 
foreign security sector advances a single, coherent strategy, 
that any investments we make in foreign security forces advance 
both security and political purposes, that such efforts take 
into account the political balance between civil and military 
institutions in the recipient country, that they are based on 
mutual enduring interests between our countries, and that they 
do not cause long-term unintended effects in the country or in 
the region.
    That is certainly the case as we go about the business of 
implementing the State Department's Title 22 authorities. It is 
equally the case, however, as we fulfill the State Department's 
congressionally mandated roles of coordination, concurrence, 
and joint planning and development with regard to the Title 10 
authorities that fall under the purview of the Department of 
Defense. That includes signally, as the chairman mentioned, the 
new section 333 authority that was mandated by the fiscal year 
2017 NDAA. Section 333 stipulates specifically in legislation 
that assistance should not only be provided with the 
concurrence of the Secretary of State, but also be jointly 
formulated by the two departments.
    While we had certainly made some strides in that direction 
previously with the cooperation of our DOD colleagues, section 
333 marks a significant step forward from where we have been 
before. I believe this is a trend that will become even more 
critical in a time of resource challenges, but it makes sense 
from any standpoint as we seek to ensure the greatest 
efficiency and effectiveness possible for our U.S. security 
assistance, in essence, to get the greatest bang for our 
assistance buck.
    There is no question that this is both where the Secretary 
of State and the Secretary of Defense want us to go. Indeed, at 
the direction of our two secretaries, we have now established a 
new State-DOD security sector assistance steering committee to 
oversee an intensification of enhanced joint planning. I co-
chair this committee, together with Todd here to my right, and 
the committee is now engaged in developing a process for fiscal 
year 2018 military assistance planning that will enable State 
and DOD to validate our security assistance requirements, in 
keeping with our administration's priorities, to look carefully 
at how best to optimize DOD's section 333 military assistance 
and State FMF resources towards that end, to leverage each 
department's expertise and authorities, and to reinforce our 
respective requests to the Congress.
    In the longer term, we hope to strategically integrate 
State and DOD planning and resourcing processes for an even 
wider range of security assistance efforts, including by 
synchronizing our budget requests and rationalizing and 
refining the use of each department's authorities.
    I want to thank you again for taking up this absolutely 
essential issue and finding the time today to address it 
thoughtfully.
    I cannot stress enough how appreciative I am for the 
tremendous partnership and the good will of the two gentlemen 
sitting beside me here today, as well as many of your staff who 
so patiently worked through these very complex issues together 
with us.
    I ask that my written statement, as you said, be accepted 
for the record, and I very much look forward to your questions.
    [Ambassador Kaidanow's prepared statement follows:]


                 Prepared Statement of Tina S. Kaidanow

    Mr. Chairman, Senator Cardin, and members of the committee, thank 
you for the opportunity to be here today.


        Security assistance is a vital, integral component of our 
        national security strategy . . . Security assistance programs 
        are a most cost-effective means of enhancing the security of 
        the United States.

                                            President Ronald Reagan


    These words, from President Reagan's 1982 National Security 
Strategy, are as true today as they were then, although the statutes 
and processes through which American security assistance is programmed 
and managed have changed significantly since that time. Since 2001 in 
particular, we have seen a re-orientation of security assistance, 
greatly driven by the emergence of the global threat from terrorism, 
towards the purpose of achieving military ends. Yet at its core--as 
directed by the Foreign Assistance Act of 1961,\1\ the Arms Export 
Control Act and, indeed, by the annual State and Foreign Operations 
appropriations acts, including the most recent FY 2017 Consolidated 
Appropriations Act\2\ --foreign assistance, including security 
assistance, is a tool of foreign policy that may be very effectively 
used in the context of the consideration of the long term interests of 
the United States, among them relationship building, regional power 
balancing, interoperability, and the promotion of professionalism in 
the armed forces of partner nations. Given the relationship between 
security assistance and foreign policy, the Department of State must 
play a crucial role in the provision, direction, supervision and 
coordination of this assistance and all similar assistance across the 
U.S. Government.
---------------------------------------------------------------------------
    \1\ 22 U.S.C. 2382(c): Under the direction of the President, the 
Secretary of State shall be responsible for the continuous supervision 
and general direction of economic assistance, military assistance, and 
military education and training programs, including but not limited to 
determining whether there shall be a military assistance (including 
civic action) or a military education and training program for a 
country and the value thereof, to the end that such programs are 
effectively integrated both at home and abroad and the foreign policy 
of the United States is best served thereby. For Foreign Military 
Financing, loans and cooperative programs, there is also a similar 
provision at 22 USC 2752.
    \2\ P.L. 115-31, FY 2017 Consolidated Appropriations Act, Section 
7056(a): Under the direction of the President, the Secretary of State 
shall be responsible for the continuous supervision and general 
direction of economic assistance, law enforcement and justice sector 
assistance, military assistance, and military education and training 
programs, including but not limited to determining whether there shall 
be a military assistance (including civic action) or a military 
education and training program for a country and the value thereof, to 
the end that such programs are effectively integrated both at home and 
abroad and the foreign policy of the United States is best served 
thereby.
---------------------------------------------------------------------------
    Security assistance is a powerful tool that the United States can 
use to strengthen our alliances and partnerships around the world and 
mitigate threats that require a collective response: terrorism, 
organized crime, restraints on the freedom of navigation, and other 
challenges to our national security. U.S. security assistance supports 
regional stability in the face of terrorist threats, in particular the 
threat posed by ISIS and other organizations such as Al-Qaeda, Boko 
Haram, and al-Shabaab. Our assistance reassures allies and partners and 
provides the means for them to counter destabilizing and malign 
activities of violent extremist groups in a regional context. It also 
strengthens security relationships in a manner that bolsters regional 
and global security, increases U.S. influence, secures access and legal 
protections to facilitate deployment of U.S. forces, improves 
interoperability between U.S. and coalition partners, advantageously 
shapes partners' capabilities to support strategic priorities, and 
promotes the U.S. defense industrial base as the first and best option 
for states that are procuring defense articles. Our security assistance 
helps build security sector institutional capacity to ensure the long-
term sustainability, effectiveness, professionalism, and resilience of 
partner and ally nations, and it promotes post-conflict stability to 
enhance partners' internal security and reduce threats to U.S. and 
partner interests.
    But security assistance is also a tool that inherently implicates 
every aspect of our foreign policy--whether because of the sensitivity 
of the partner, questions of regional balance, or the type of 
assistance, as well as the program's overall impact on bilateral and 
regional goals and relationships. It is, therefore, a tool that we must 
use in conjunction with the other key pillar of foreign policy: 
diplomacy.
    State works diligently to ensure that all security sector 
assistance--whether it be the provision of major munitions in Iraq or 
Lebanon, border security programs in Eastern Europe, maritime capacity 
building in Vietnam, or military justice programs in Mexico--
strategically targets and advances our foreign policy objectives in the 
country at issue and accounts for the broader regional and global 
context. It is our job to ensure that our security assistance aligns 
with and advances U.S. goals in light of the broader diplomatic and 
defense relationship, and that everything the many and varied entities 
of the U.S. Government are doing in foreign security sectors advances a 
single, coherent strategy.
    The Department must work to ensure that any investments we make in 
foreign security forces advance both political and security purposes; 
that they account for the political balance between civil and military 
institutions in the recipient country; that they are based on mutual, 
enduring interests between our countries; and that they do not cause 
long-term unintended effects in the country or region.
    This is an important role, and one we take very seriously. This is 
the case whether we are talking about our own Title 22 assistance 
authorities such as Foreign Military Financing (FMF), Peacekeeping 
Operations (PKO), Nonproliferation, Antiterrorism, Demining and Related 
programs (NADR), International Military Education and Training (IMET), 
or International Narcotics and Law Enforcement (INCLE) accounts and 
authorities. It is equally the case as we fulfill the Department's 
Congressionally-mandated role of concurrence, and joint planning and 
development, as well as coordination, with Department of Defense (Title 
10) authorities, such as the new section 333 mandated by the FY 2017 
NDAA, or the Ukraine Security Assistance Initiative, the Maritime 
Security Initiative, the Counter-ISIS Train and Equip authority, and 
others.
    Over recent years, the United States has provided more than $15 
billion in security sector assistance per year. The amount of security 
sector assistance has nearly tripled since 2001, driven in large part 
by expanded authorities and appropriations for DoD to build the 
capacity of foreign security forces in support of ongoing 
counterterrorism and Coalition operations. Whereas State managed more 
than 80 percent of the U.S. Government's security sector assistance 
before 2001, we now manage roughly 50 percent. This has made it all the 
more important that we work closely with our partners at DoD to ensure 
a unified approach.
Promoting an Integrated State-DoD Approach
    Secretary Tillerson and Secretary Mattis have committed our 
departments to work more closely together to optimize the full range of 
security sector assistance resources, in order to achieve the best 
possible outcomes for U.S. national security and the American taxpayer. 
We have established a new State-DoD Security Sector Assistance (SSA) 
Steering Committee to oversee more enhanced joint planning.
    Congress has aided this effort by ensuring that DoD's new section 
333 authority is structured in a way that promotes State and DoD's 
collaboration. Specifically, section 333 stipulates that assistance 
programs should be jointly formulated by the two departments and 
provided with the concurrence of the Secretary of State. Working with 
DoD, we are establishing the appropriate structures and processes to 
meet these requirements efficiently and effectively.
    In the past, State has sought a division of labor between State and 
DoD programming whereby DoD largely limits its activities to assistance 
in support of ongoing operations and efforts related to U.S. force 
readiness, and State takes responsibility for all other capacity 
building efforts as part of its broader foreign assistance 
responsibilities. The new section 333 authority--and its focus on 
longer-term capacity building--indicates that Congress supports a 
broader direction. With this in mind, we are working with DoD to 
determine how we can best marshal our respective resources to achieve 
our common national goals.
    The legislated ``concurrence'' role of State in Chapter 16 of Title 
10 (DoD) authorities, is the most robust statutory device for ensuring 
input into DoD programs (while other means of input, such as a 
``coordination'' or ``consultation'' role, being less robust in this 
context).

   Concurrence:  Where an authority requires the ``concurrence of the 
        Secretary of State,'' State's practice is to have the Secretary 
        or other designated senior official approve the relevant 
        activities prior to their being undertaken. In recent practice, 
        this entails a signed memorandum or letter to DoD stating the 
        principal's concurrence on each activity or set of activities.
   Joint Formulation--Now Joint Planning and Development: Section 333, 
        DoD's new, comprehensive train and equip authority, replaced 
        its longstanding successor authorities, section 1206 (later 
        section 2282), but similarly requires that a much broader range 
        of capacity building programs be ``jointly planned and 
        developed'' with State, in addition to State's concurrence. 
        This is similar to the longstanding requirement since 2006, in 
        section 1206, the predecessor authority, which provided that 
        programs under that authority be jointly formulated, and 
        concurred in. State concurrence is an essential safeguard and 
        could be exercised at various stages of program development to 
        ensure that the departments are collaborating appropriately at 
        the working level. Joint formulation--now joint planning and 
        development--is often what actually produces an effective 
        whole-of-government approach. By working together through a 
        combination of formal and informal processes throughout the 
        entire life-cycle of a program, we can direct our collective 
        resources strategically, leveraging each other's strengths and 
        expertise, and align our activities abroad to support a 
        coherent strategy.

    Done properly, joint planning and development requires 
collaborative processes throughout the planning, budgeting, 
implementation, and monitoring and evaluation processes. It must 
involve relevant stakeholders in the field and at headquarters, as only 
headquarters can provide the appropriate regional, global, and 
technical perspectives. These processes must also be tailored to each 
program or authority to most efficiently and expediently achieve the 
appropriate level of State oversight. The Department of State is 
committed to getting these processes right. We greatly appreciate your 
attention to these details. With your support, State will maintain a 
legislated role promoting complementarity and unity of effort in all 
U.S. foreign assistance, including that managed by other agencies.
    Conducting the necessary review and providing concurrence on DoD's 
security sector assistance is no small task. Since March 2017, my 
Bureau, Political-Military Affairs (PM), has coordinated State 
concurrence for nearly 350 projects in 9 separate review actions under 
DoD's section 333 authority, with other regional and functional State 
bureaus to include INL and CT, as appropriate. The requests for section 
333 concurrence have mostly been comprised of counter-narcotics 
activities and counterterrorism activities, both of which were 
previously executed under DoD's predecessor authorities, some of which 
lacked the State concurrence requirement. These however represent only 
a fraction of the full breadth of programs that DoD will be 
implementing under the section 333 authority. Additionally, State 
reviewed and provided policy and prioritization feedback on initial FY 
2018 proposal concepts during a series of DoD regional strategy reviews 
in July 2018.
    In addition, in June 2017 alone, PM coordinated State concurrence 
on over 1,100 regional center activities expected to be undertaken with 
non-military counterparts, non-governmental organizations, and 
international organizations.
    Until these processes are more fully fleshed out, the Department's 
coordination efforts include:

   Reviewing projects to identify items of concern for State 
        stakeholders, e.g., political, policy and/or programmatic 
        concerns;
   Determining whether any State legal restrictions prohibit or limit 
        the assistance;
   Verifying that the host nation has an appropriate mechanism to 
        provide relevant assurances, such as through an end-use 
        assurance agreement for assistance being provided under section 
        333 and/or other DoD authorities; and if not, and facilitating 
        the establishment of such mechanism, if necessary;
   Gathering financial data from PM, INL, CT, ISN, and appropriate 
        regional bureaus for DoD's Congressional notifications, which 
        must report certain foreign assistance provided to the host 
        country during the three previous fiscal years; and,
   Addressing questions and/or areas of concern posed by State 
        functional and regional bureaus with DoD.

    As State and DoD take steps to establish a more comprehensive joint 
planning and development process, we hope this will include a 
collaborative approach to issuing strategic guidance, developing 
priorities, and conducting rigorous reviews of each program proposal to 
properly assess program viability, risks, and chances for success; 
potential third order effects for the country and region; expected 
political impact; and the extent of synchronization with other U.S. 
Government and third country efforts. We appreciate DoD's intent to 
develop a process that permits this.
    To this end, as previously indicated, Secretaries Tillerson and 
Mattis have directed the establishment of a State-DoD SSA Steering 
Committee. This Committee is overseeing ongoing discussions that I co-
chair with the Assistant Secretary of Defense for Strategy, Plans, and 
Capabilities.
    As an immediate priority, the Committee is working to develop an 
immediate process for Fiscal Year 2018 security sector assistance 
planning that will permit State and DoD to validate security assistance 
requirements for countries that directly support this Administration's 
top priorities, optimize section 333 military assistance and FMF 
resources to effectively advance national security objectives, leverage 
each Department's expertise and authorities, and reinforce our 
respective requests to Congress. In the longer term, the intentis to 
strategically integrate State and DoD planning and resourcing processes 
for a wider range of SSA resources, including by synchronizing budget 
requests and rationalizing and refining the use of SSA authorities.
    Within the State Department, multiple offices have significant 
roles to play in the planning, development, execution, and oversight of 
security sector assistance. These include:

   Bureau of Political-Military Affairs (PM): PM directs FMF, IMET, 
        and PKO--meaning that it develops policy parameters for project 
        proposals developed by DoD personnel at U.S. embassies abroad; 
        works with DoD stakeholders to develop capability requirements; 
        establishes priorities; determines budget trade-offs; and 
        oversees DoD execution of the programs. It also manages State's 
        role in DoD security cooperation, including by managing the 
        joint planning and development process and exercising the 
        Secretary's delegated authority to concur on a number of DoD 
        programs. The FY 2017 NDAA requires State to identify a lead 
        program coordinator for section 333, and the Secretary has 
        designated the PM Assistant Secretary to assume that role.
   Director of U.S. Foreign Assistance Resources (F): F oversees 
        security sector assistance implementation and policy 
        coordination for the Department of State and leads related 
        interagency processes. F is also responsible for technical 
        support and oversight of all SSA-related budget formulation, 
        coordination on strategic planning, assessment, program design, 
        partner selection procedures, performance management, 
        monitoring and evaluation. F also exercises State's authority 
        to concur on 333 programs, based on recommendations from PM.
   Bureau of International Narcotics and Law Enforcement (INL): INL 
        manages State's INCLE funding and provides policy oversight and 
        input and ultimately foreign policy direction on DoD counter-
        narcotics activities, counter-transnational organized crime, 
        and assistance to civilian security sector entities such as law 
        enforcement and criminal justice sector institutions.
   Bureau of International Security and Nonproliferation (ISN): ISN 
        manages some NADR programs such as the Export Control and 
        Related Border Security (EXBS) program and provides input on 
        DoD-led Countering Weapons of Mass Destruction (CWMD) programs.
   Bureau of Counterterrorism (CT):  CT manages some NADR programs, 
        notably the Department's share of the Counterterrorism 
        Partnerships Fund, and provides input on DoD programs, 
        including CWMD programs.
   Bureau of Diplomatic Security (DS):  DS implements some NADR 
        programs including Anti-Terrorism Assistance (ATA), and 
        provides input on DoD counterterrorism programs. Through ATA's 
        NADR and Special Program for Embassy Augmentation and Response 
        (SPEAR) programs, DS coordinates State-DoD collaboration on 
        bilateral/ multilateral training and exercises. ATA law 
        enforcement integration into the U.S. Special Operations 
        Command Africa Flintlock exercise is a proven example of how to 
        successfully promote interoperability between civilian and 
        military security forces.
   State Department Regional Bureaus: Regional Bureaus provide input 
        on programs and priorities across the spectrum of State and DoD 
        security assistance programs in which State has a role in 
        formulation or concurrence.
   Bureau of Democracy, Human Rights, and Labor (DRL): As with the 
        Regional Bureaus, DRL provides input by identifying the risks 
        of human rights abuses and violations by partner forces in 
        programs and priorities across the spectrum of State assistance 
        and DoD assistance for which State has a concurring role. DRL 
        leads the human rights vetting process (``Leahy vetting'').
   Office of the Legal Adviser (L): In addition to its role as relates 
        to State Department (Title 22) assistance, L also reviews all 
        DoD section 333, 331, and other Title 10 proposals in which 
        State has a concurrence or coordination role, including to help 
        identify, where applicable, any relevant foreign assistance 
        restrictions.
   Office of Legislative Affairs (H): With other bureaus, H monitors 
        and preliminarily assesses new legislative developments in the 
        SSA realm, on a real time basis, to stay on top of that process 
        and to mitigate adverse impact undermining institutional 
        equities of the Secretary in order to help preserve the 
        Secretary's lead responsibility for the supervision and 
        direction of such assistance.

    With this structure laid out, let me walk you through how our 
security assistance is programmed, comparing the Department's role in a 
Title 22 assistance authority, that of Foreign Military Financing, with 
our role in a Title 10 authority like section 333:
    Both section 333 and FMF programming begin with strategic guidance 
to the field; Security Cooperation Offices (SCOs) and Combatant 
Commands (COCOMS) then develop proposals in accordance with that 
guidance. It is State's hope that in the future this strategic guidance 
will be joint, covering both programs.
    Further, both section 333 and FMF rely on interagency forums to 
validate concepts and/or detailed proposals. For example, for FMF, 
following the submission of SCOs proposals, COCOMs recommended regional 
recommendations, and embassies' Mission Resource Requests, PM convenes 
annual security assistance roundtables to discuss country- and region-
specific objectives, priorities, and associated capabilities and 
requirements. Participants include the regional bureaus, INL, CT, DRL, 
combatant commands, OSD, Joint Staff, and the Defense Security 
Cooperation Agency (DSCA). Based on these discussions, PM and the 
regional bureaus develop recommended programs and allocations to be 
included in the Congressional Budget Justification. It is State's 
desire that in the future these FMF roundtables will be combined, 
covering both State and DoD equities authorities and programs.
    Once a proposal is approved, and in State's case, the money becomes 
available, FMF requires justification to Congress; also all section 333 
programming requires congressional notification. Both FMF and section 
333 programs rely on the Foreign Military Sales (FMS) program, which 
the DSCA manages. Once the notification is complete, section 333 
implementation can begin immediately, as it does not require the 
affirmative buy-in of the recipient. SFMF, however, requires the host 
nation recipient to sign a Letter of Offer and Agreement (LOA) with the 
U.S. Government, typically with DSCA, in which the recipient agrees to 
the purchase and numerous other provisions, including retransfer and 
end-use restrictions.
    Aside from this question of host nation participation in the FMF 
process, subsequent execution of both funding streams is similar.
Improving Outcomes and Efficiency of our Security Assistance
    As we work to enhance our collaboration with DoD, we are also 
looking at how we can most effectively utilize security assistance. In 
that vein, we are considering changes to the way we do business--for 
example, by building in more accountability and cost-sharing and other 
co-investment strategies.
    The Fiscal Year 2018 budget request, for instance, proposes 
transitioning some of our FMF from grant assistance to loans. FMF loans 
will provide an opportunity for the U.S. Government to both promote 
U.S. industry and build key partners' defense capabilities, while 
minimizing the burden on U.S. taxpayers. Department of State planning 
for a partial transition from FMF grants to loans is focused on 
fulfilling core foreign policy and national security needs, maximizing 
our budgetary outcomes, and working with foreign recipients to maintain 
key security partnerships. To the extent that past grant FMF recipients 
are willing and able to continue expanding or sustaining their U.S.-
origin defense capabilities through FMF loans instead of grants, the 
United States will be able to reduce the amount of foreign assistance 
needed for these purposes. Partners may have the opportunity to borrow 
more than they received in the past in grant assistance, allowing 
recipients to purchase more American-made defense equipment and 
services. The Department is in the process of conducting loan 
feasibility reviews on a country-by-country basis, considering each 
country's importance to U.S. national security, national budget, 
expected ability to fulfill the terms of a loan agreement, and 
likelihood of interest. The Department will keep the Committee informed 
of its progress in this effort.
    We are also working to ensure that the assistance we do have is 
spent efficiently and with positive effect. Through Department-specific 
policy and evaluation requirements mandated by Congress, the Department 
of State has continued to prioritize and develop monitoring and 
evaluation (M&E) across sectors. State has been and remains a leader 
among U.S. Government agencies on developing and implementing M&E for 
the security assistance. M&E of these security assistance programs 
provides unique challenges in terms of the content of the programs, 
diversity of stakeholders, significant external factors, and highly 
challenging implementation environments.
    Through the early evaluation work of the PKO-funded Global 
Peacekeeping Operations Initiative (GPOI) and followed by other State 
programs, the Department has developed a range of frameworks, tools, 
and best practices widely recognized as promoting effective programs, 
improving future plans, and, ultimately, informing our policy. While 
the programs cited cover a broad range of activities serving an array 
of foreign policy objectives, the Department continuously seeks to 
ensure consistency when possible. Ensuring that our efforts are 
complementary with DoD's nascent assessment, monitoring, and evaluation 
effort is a central concern for our military assistance programs.
Conclusion
    I appreciate the opportunity to testify before you today on the key 
topic of security assistance. In all of our assistance, I believe the 
Department of State has three critical partners: our colleagues in the 
Department of Defense, with whom we are working continuously to 
implement our role in assistance; our foreign partners, with whom we 
work every day to build capacity, increase interoperability, and 
develop relationships; and, you, the U.S. Congress. Security assistance 
is, in the end, a tool of foreign policy, and the committee's oversight 
of that assistance is welcomed by the Department as an essential 
element of effective policy-making.
    Thank you, and I look forward to your questions.


    The Chairman. Thank you very much.
    Mr. Harvey?

 STATEMENT OF THOMAS H. HARVEY III, ACTING ASSISTANT SECRETARY 
OF DEFENSE FOR STRATEGY, PLANS, AND CAPABILITIES, OFFICE OF THE 
 SECRETARY OF DEFENSE, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, 
                               DC

    Mr. Harvey. Thank you, Mr. Chairman, Ranking Member Cardin, 
distinguished members of the committee. I appreciate the 
opportunity to appear before you here today with my colleagues 
from the State Department and Defense Security Cooperation 
Agency.
    As you underscored at the outset, the Department of Defense 
conducts a broad range of security assistance activities 
globally. DoD authorities and resources in the security 
assistance sphere have expanded to meet new and evolving 
security challenges over the past 10 to 15 years, certainly 
since the first DoD train and equip authority, the original 
section 1206, was passed by Congress in 2005.
    Even as DoD's direct involvement in the security assistance 
arena has increased, the Defense Department has sought to work 
closely with our State Department counterparts to identify, 
formulate, and implement partner security capacity building 
programs. The Department of Defense strongly endorses and 
supports the State Department's leading role in not only 
setting the administration's course on foreign policy, but 
defining the shape and purpose of our U.S. foreign assistance 
efforts, including security assistance initiatives.
    No official outside the State Department has been a 
stronger proponent for reinforcing State's primacy in 
performing these roles and having added resources to execute 
them than Secretary of Defense Mattis. He recognizes, more than 
most, that success in addressing the Nation's threats requires 
an integrated team effort where DoD's and State's resource 
allocation processes are tightly linked and mutually 
reinforcing.
    Most DoD security assistance programs are bounded by 
statutory obligations to jointly develop and plan their 
activities in conjunction with the State Department and to 
secure Secretary of State concurrence before implementing them. 
The Department of Defense recognizes the importance, even the 
essential imperative, of conducting business in this way. In 
our government, no department has the luxury of pursuing 
uncoordinated efforts, especially given finite resources and 
growing threats. While it may not have always been so, I would 
venture to say that, currently, all DoD's security assistance 
programs are shaped and approved at some level, and often at 
multiple levels, by the State Department, from the country team 
to the regional function bureaus at main State, to the 
Secretary himself.
    One factor to keep in mind, as we consider the U.S. 
security assistance enterprise, DoD should not replicate the 
functions of the State Department and vice versa. While some 
overlap in authorities and resources provides useful 
flexibility in tackling difficult security threats, the two 
departments cannot and should not seek to recreate or mirror 
each other's security assistance programs exactly. DoD and the 
State Department can work toward the same objectives and ends 
but contribute to those ends through different ways or lines of 
effort that reflect their distinct histories, missions, and 
capabilities.
    Many of DoD activities have grown out of pressing 
operational needs identified by commanders on the ground, which 
complement but differ from the broader political and diplomatic 
imperatives that often have formed the State Department 
security assistance activities. Those distinctions have 
admittedly blurred in the margins over the years but can still 
be seen in the underlying rationale for core programs for each 
department.
    In the past 2 years, DoD has worked closely with its 
oversight committees to reform the way we approach security 
assistance by consolidating authorities, combining resources, 
pursuing workforce reform, and improving evaluation efforts. 
Why is this important? Because it infuses DoD efforts with 
greater discipline, helping guard against mission creep, and 
giving us the tools to identify and jettison ineffectual 
projects as soon as possible. These efforts also allow DoD to 
speak with a more unified voice in collaborating with the State 
Department so that we can assure that DoD's security assistance 
actors adhere to guidance resulting from collective decisions 
made at senior levels of the two departments.
    As Ambassador Kaidanow indicated, a tangible marker of the 
commitment to work even more closely together is represented by 
Secretary Mattis and Secretary Tillerson's decision and 
direction that the two departments form and regularly convene a 
security sector assistance steering committee that sets 
security assistance priorities in this field and synchronizes 
our investments to ensure that we do not duplicate efforts on 
one hand, nor inadvertently create gaps or seams between our 
programs on the other.
    Finally, I would simply reiterate that DoD is committed to 
working productively and harmoniously with the State Department 
in this space. DoD has no desire nor intent to supplant State 
because we recognize that the multi-dimensional challenges we 
face where security, governance, stabilization, and development 
all intermingle require the full and integrated efforts of both 
departments if we are to succeed in achieving our security 
goals globally.
    Thank you, Mr. Chairman. I stand by for your questions.
    [Mr. Harvey's prepared statement follows:]


                   Prepared Statement of Todd Harvey

    Thank you Chairman Corker, Ranking Member Cardin, members of the 
committee. I am pleased to be here today to share my thoughts on the 
integrated effort between the State Department and Department of 
Defense Security Sector Assistance (SSA) initiatives.
    Building partnerships, supporting allies, and protecting national 
interests are essential elements of U.S. foreign policy and national 
security. Over the past 15 years, as DoD has increasingly sought to 
operationalize partnerships to focus on achieving mutual security 
objectives, Congress has granted the Department a number of Title 10 
authorities subject to different regional, functional, or financial 
constraints. DoD has worked closely with the State Department to ensure 
that DoD and State programs are complementary and mutually reinforcing. 
While there is always room for improvement, both Secretaries have 
committed to synchronizing their two Departments' efforts to ensure the 
highest collective return on the investment of resources in the 
security cooperation (SC) arena.
Importance of SSA Objectives on DoD Policy
    Speaking at the Shangri-La Dialogue this past June, Secretary 
Mattis emphasized that one of the Department's highest priorities is to 
empower countries to be even stronger contributors to their own peace 
and prosperity. When used effectively, SC tools emphasize the 
importance of enabling partners to address shared security challenges 
while enhancing the interoperability of allies and partners with the 
U.S. joint force.
    After 9/11, Congress granted incremental expansions of conditions-
based authorities in an effort to allow DoD to be more responsive to 
emerging global threats, while addressing longer-term global and 
regional shared security challenges. The unintended consequence was the 
creation of a patchwork of authorities which complicated management, 
application and oversight of those engagements. To remedy this 
challenge, the Congress enacted sweeping reforms to consolidate and 
restructure SC in the 2017 NDAA, allowing DoD to prioritize, address a 
broader range of contingencies, and achieve more strategic results. The 
NDAA permanently codifies a number of SC authorities, including 
consolidation of several train and equip authorities to better reflect 
real world situations; a requirement to assess, monitor, and evaluate 
the results of SC efforts; and consolidation of policy oversight and 
resource allocation under the authority of a single official at the 
Under Secretary level or below to enable prioritization and trade-offs. 
Finally, it offers an opportunity to consolidate SC program management 
within the Defense Security Cooperation Agency (DSCA,) to "eliminate 
distortions, lack of coordination, and duplication of effort in the 
current architecture arising from narrowly focused program management 
offices," per the joint explanatory statement accompanying the NDAA.
DoD Implementation of Title 10 Authorities
    Policy is working with DoD Components to implement reforms along 
multiple lines of effort including Oversight and Resource Allocation; 
Workforce Development; Planning and AM&E; International Sales; and 
Organizational Alignment. The Deputy Secretary of Defense designated 
the Under Secretary of Defense (Policy) as the single oversight 
authority to unify SC policy oversight. Policy is in the process of 
issuing program guidance for the consolidated train-and-equip authority 
that provides clearer objectives to Geographic Combatant Commanders--a 
framework through which the Department may better consider trade-offs, 
both cross-regionally and cross-functionally. This streamlining will 
help DoD speak with one voice in coordinating its efforts with State 
Department.
    The NDAA requires that, starting with the President's Budget for 
FY19, the Department set forth a comprehensive SC budget display that 
identifies and explains all SC funding and provide regular spending 
updates. The provision will enhance Congressional oversight of DoD SC 
programs and activities, including those of the Military Departments.
    Realizing many of the benefits described above rests on DoD's 
ability to undertake workforce reform. A better-trained SC workforce 
will improve planning and application of authorities, which will drive 
new ways to engage partners to achieve more impactful results. 
Workforce development will benefit both Title 22 and Title 10 programs 
and enhance cooperation with State Department. To address the 
assessment, monitoring evaluation (AM&E) requirements in the NDAA, DoD 
is working to establish a consistent approach to AM&E to ensure SC 
initiatives are deliberately planned and executed and achieve strategic 
objectives. Assessment, monitoring, and evaluation of security 
cooperation programs will foster accurate and transparent reporting on 
the outcomes and sustainability of security cooperation, improve 
returns on DoD security cooperation investment, and identify and 
disseminate best practices and lessons learned to inform decisions on 
security cooperation policy, plans, programs, and resources.
    We're working to implement the NDAA requirement that train-and-
equip programs include appropriate human rights training and 
institutional capacity building. DoD intends to meet this requirement 
through our defense institution building programs, which promote 
establishment of defense institutions that are effective, accountable, 
and transparent.
State-DoD SSA Steering Committee
    This past spring, Secretary Tillerson and Secretary Mattis 
established an Assistant Secretary-level State-DoD SSA Steering 
Committee to oversee a collaborative planning process, identifying top 
national security priorities and synchronizing investments to maximize 
results.
    The committee's long-term goal is to integrate planning and 
resourcing processes for a wide range of SSA programs, including by 
ensuring State and DoD's budget requests are complementary, and 
rationalizing and refining the use of SSA authorities. To that end, the 
Steering Committee will also oversee State and DoD inputs into the 
President's Quadrennial Review of SSA required by the FY 2017 NDAA.
    For FY 2018, State and DoD developed a planning process that will 
facilitate joint validation of requirements to address the 
administration's top priorities. It will also inform DoD's planning and 
prioritization of Section 333 and related train-and-equip authorities. 
This process will enhance our ability to effectively advance national 
security objectives, leverage each Department's expertise and 
authorities, and reinforce our respective requests to Congress.
    Conclusion
    Effective SC depends on a close and collaborative relationship 
between the Departments of State and Defense, to mutually strengthen 
our partners and allies, build security globally, and respond to 
threats that require collective effort.
    I look forward to your questions.


    The Chairman. Thank you very much.
    Lieutenant General?

STATEMENT OF LIEUTENANT GENERAL CHARLES HOOPER, USA, DIRECTOR, 
      DEFENSE SECURITY COOPERATION AGENCY, WASHINGTON, DC

    General Hooper. Chairman Corker, Ranking Member Cardin, and 
distinguished members of the committee, I am pleased to be here 
today to share my thoughts on the role of the Defense Security 
Cooperation Agency, or DSCA, in the management, execution, and 
reform of security cooperation.
    As you know, security cooperation includes a wide range of 
activities such as transfers of defense articles and services, 
military-to-military exercises, ministerial advising, and train 
and equip programs using both Title 10 and Title 22 authorities 
to deliver a full spectrum of capabilities to our partners.
    DSCA has traditionally focused on the execution of Title 22 
authorized programs such as foreign military sales, or FMS, 
funded by partner nations themselves and foreign military 
financing, funded by the Department of State. As a result of 
the legislative mandates in the fiscal year 2017 National 
Defense Authorization Act, however, DSCA is now responsible for 
implementing broader supervision of Title 10 security 
cooperation programs that are funded and executed by the 
Department of Defense such as train and equip, humanitarian 
assistance, and defense institution building, to name but a 
few.
    DSCA plays a critical role in the nexus of diplomacy, 
policy, and program execution working closely with our 
counterparts throughout DoD, in particular OSD policy, and also 
working with the interagency and especially with the Department 
of State colleagues in Ambassador Kaidanow's bureau and, of 
course, the Members of Congress and their staffs. In this role, 
we aim to align and integrate policy and operational 
requirements to provide innovative security cooperation 
solutions that benefit both our foreign partners and the United 
States.
    As Ambassador Kaidanow and Mr. Harvey have noted, our 
programs build relationships that directly support U.S. 
security interests, develop allied and partner military 
capabilities, and provide U.S. forces with peacetime and 
contingency access. It is important to note, though, this 
access is not just geographical. It is an opportunity to build 
personal relationships which underpin our national security and 
foreign policy.
    One of my main focus areas at DSCA is to ensure we continue 
to cultivate effective and transparent relationships not only 
between our Defense and State counterparts, but with partner 
nations, private industry, and other influencers throughout the 
security cooperation process.
    Over the past few years, in close collaboration with OSD 
policy and the State Department, DSCA has begun to implement a 
robust set of initiatives addressing security cooperation 
challenges, in particular those associated with foreign 
military sales. Today, our partners are expecting more 
deliveries on accelerated timelines, and international 
competition in the defense trade is increasing. The majority of 
FMS cases are shepherded through the process relatively 
quickly. A small number, however, may take more time as the 
interagency and Congress engage in a deliberate review to 
ensure that the necessary statutory and policy criteria are 
met.
    Despite this, the United States remains the global security 
cooperation partner of choice. We deliver not only the most 
effective defensive systems to our partners, but we also ensure 
a total package approach that includes the provision of 
training, maintenance, sustainment to achieve a full spectrum 
capability.
    While improvements to the FMS process are necessary, they 
are not sufficient to make sure that we best utilize all of the 
security cooperation tools at our disposal. The fiscal year 
2017 NDAA put forth a number of significant reforms to enhance 
flexibility, transparency, oversight, and management of 
programs and resources, professionalized the security 
cooperation workforce, and improved the alignment of security 
cooperation activities with defensive strategies. Together with 
the FMS improvement initiatives, these new authorities provide 
us with a unique opportunity to transform security cooperation 
into a more strategic U.S. national security tool.
    Work on these reforms is well underway, and we must 
continue to harmonize our efforts across DoD, as well as the 
interagency. We must allow for open dialogue respecting all 
perspectives, while at the same time taking advantage of the 
momentum we have to achieve the reform mandates in a timely 
manner.
    For the last 70 years, security cooperation has been the 
pillar of U.S. foreign policy. We must not, however, rest on 
our laurels. Today, the convergence of congressional mandates 
with the Department's emphasis on strengthening our partners is 
a call to action. We must seize this opportunity to fortify our 
status as the security cooperation partner of choice.
    Thank you.
    [General Hooper's prepared statement follows:]


    Prepared Statement of Lieutenant General Charles W. Hooper, USA

    Thank you Chairman Corker, Ranking Member Cardin, and members of 
the committee. I am pleased to be here today to share my thoughts on 
the role of the Defense Security Cooperation Agency (DSCA) in the 
management, execution, and reform of Security Cooperation (SC).
    The mission of DSCA is to lead the SC community--including DSCA 
headquarters and its subcomponents, the Implementing Agencies in the 
Military Departments, and the Security Cooperation Offices in over 140 
U.S. embassies--in developing and executing innovative solutions that 
support mutual U.S. and foreign partner interests. Our programs build 
relationships that directly support U.S. security interests, develop 
allied and partner military capabilities, and provide U.S. forces with 
peacetime and contingency access. The Agency performs this mission by 
cultivating effective, efficient, and transparent relationships with SC 
stakeholders including the Department of State (DoS), the U.S. 
Congress, partner nations, industry, and other influencers throughout 
SC processes. Security Cooperation is a key tool of U.S. foreign policy 
and national security. The Departments of Defense and State share 
responsibility for achieving the SC mission.
SC in Context
    SC includes a wide range of activities--such as transfers of 
defense articles and services, military-to-military exercises, 
ministerial advising, and train-and-equip programs--using both Title 10 
and Title 22 U.S. Code authorities to deliver a full-spectrum of 
capabilities to our partners. Within that SC framework, DSCA 
traditionally implemented several programs under Title 10 authorities, 
such as Train and Equip, Humanitarian Assistance, and Defense 
Institution Building programs. In addition, DSCA administers Title 22 
authorized programs overseen by the DoS, such as the Foreign Military 
Sales (FMS) and the Foreign Military Financing (FMF).
    DSCA has traditionally focused on the execution of FMS, to include 
providing oversight for over 10,000 FMS and FMF Administrative-funded 
personnel across the SC community. As a result of the legislative 
mandates to reform SC in the Fiscal Year 2017 National Defense 
Authorization Act (FY 2017 NDAA), DSCA is charged by Section 382(b) of 
Title 10 with the execution and administration of all SC programs and 
activities of the Department involving the provision of defense 
articles, military training and other defense related services by 
grant, loan, cash sale or lease. DSCA now has additional duties to 
execute and administer military to military engagements, training with 
foreign forces, support operations, capacity building, and some 
educational and training activities to include the support for other 
departments and agencies of the U.S. Government that advance DoD SC 
objectives. I will highlight the Department's efforts to make both 
Title 10 and Title 22 authorities a more effective tool of our foreign 
policy and national security.
FMS Process Improvements
    The SC community has worked to develop, analyze, and assess FMS 
planning, resourcing, and execution. Together with stakeholders across 
the interagency, in particular DoS, DSCA has begun to implement a 
robust set of initiatives aimed at addressing SC challenges, in 
particular those associated with FMS.
    A key tool to support our foreign policy objectives, FMS can help 
to shape the international environment, develop interoperability with 
partners, improve access, and build strategic, operational, and 
personal partnerships. All FMS transactions, consistent with the 
provisions of the Arms Export Control Act of 1976, are intended to 
ensure that 1) each sale is of mutual benefit to both the U.S. and the 
partner, 2) the technology will be protected, and 3) the transfer is 
consistent with core U.S. values.
    The majority of FMS cases are shepherded through the process 
relatively quickly. A small number, however, may take more time as the 
interagency and Congress engage in a deliberate review to ensure that 
the necessary statutory and policy criteria are met. Despite this, the 
volume of cases processed has in fact grown from a three-year average 
value of $12.5 billion in Fiscal Year (FY) 2005 to $36 billion in 2016. 
In FY 2016 alone, DSCA executed 1,700 new FMS cases along with 
approximately 4,000 modifications or amendments to existing sales. 
Today, our partners are expecting more deliveries on accelerated 
timelines at the same time that international competition in defense 
trade is increasing. Despite this, the United States remains the global 
SC partner of choice. We deliver not only the most effective defense 
systems to our partners, but we also ensure a ``Total Package'' 
approach that includes the provision of training, maintenance, and 
sustainment, to achieve full spectrum capability. That being said, 
there is always room for improvement. Initiatives underway, championed 
by DSCA, support five distinct elements of the FMS process:

   Partner Nation. The Geographic Combatant Commands are working with 
        partners and allies to more clearly define their requirements 
        up-front. This will accelerate the technology transfer and 
        contracting decisions necessary to more rapidly deliver defense 
        articles and services down the line.
   Case Development. DSCA is partnering with the Military Departments 
        to streamline and improve the development of FMS cases to 
        identify best practices that will result in greater efficiency, 
        transparency, and improved resource allocation.
   Technology Security. DSCA is working with the technology security 
        community to explore new approaches to provide more protection 
        and safeguards for U.S. defense technology while benefiting 
        industry and partner nations.
   Foreign Policy. Under the guidance of the Department of State, DSCA 
        is working with interagency stakeholders early in the FMS 
        process to flag potential concerns, such as regional stability 
        and human rights issues, to help manage partner nation 
        expectations and ensure arms transfer deliberations are well-
        informed and consistent with statutory authorities.
   Acquisition.  DSCA, the Military Departments, and the Office of the 
        Under Secretary of Defense for Acquisition, Technology and 
        Logistics office are looking at ways to protect manpower within 
        the DoD acquisition community, train acquisition professionals 
        who use the DoD acquisition process to support FMS, and develop 
        creative contracting strategies that support both FMS and 
        domestic purchases.

    These FMS-focused initiatives, which are now incorporated within 
the broader SC reform, are designed to produce a system that supports 
mutual U.S. and foreign partner goals.
FY 2017 NDAA
    While improvements to the FMS process are necessary, they are not 
sufficient to make certain that we best utilize all of the tools at our 
disposal to address the multitude of SC challenges.
    Over more than 15 years of persistent conflict, the Department's 
Title 10 authorized SC programs have grown and the international 
environment for defense arms trade has evolved. In the past, the 
Department was forced to navigate a patchwork of more than 100 discrete 
Title 10 authorities, many of which were narrowly-constrained by region 
or function.
    To address these challenges, the Deputy Assistant Secretary of 
Defense for Security Cooperation has focused on improving the planning, 
prioritization, and synchronization of Title 10 programs. These efforts 
have effectively postured the SC community to address the significant 
reforms laid out in the FY 2017 NDAA.The FY 2017 NDAA identified SC as 
a core DoD mission by establishing a new chapter of Title 10. This new 
SC chapter is meant to enhance flexibility, transparency, oversight, 
and management of programs and resources; professionalize the SC 
workforce; and improve the alignment of SC activities with defense 
strategy. These new authorities provide DoD a unique opportunity to 
transform SC into a more strategic U.S. national security tool.
    Specifically, the FY 2017 NDAA:

   consolidates policy oversight and resource allocation within the 
        Office of the Secretary of Defense and consolidates execution 
        and administration of Title 10 Security Cooperation programs 
        within DSCA;
   requires the DoD to provide a consolidated budget justification and 
        establish an Assessment, Monitoring and Evaluation (AM&E) 
        framework to allow a more rigorous, data-driven assessment of 
        program effectiveness; and
   mandates the DoD establish a SC workforce development program to 
        ensure that the SC professionals all over the world have the 
        appropriate training, education and experience to execute the 
        mission.
Comprehensive SC Reform Implementation
    Together with the Office of the Under Secretary of Defense for 
Policy, the Joint Staff, and the DoS, DSCA has developed an operational 
approach with four focus areas to implement SC reform mandated by the 
FY 2017 NDAA and to incorporate the Title 22 initiatives already 
underway. These focus areas, with the broad participation and support 
of the interagency, are designed to advance innovative policies and 
processes to address the following issues:

   Governance and Oversight to oversee SC efforts and ensure 
        compliance with legislative and policy requirements;
   Policy Guidance to develop and issue policy to provide overarching 
        direction for implementation of SC activities;
   Execution to define and implement changes to SC capabilities and 
        operations; and
   Enabling Functions to perform operations required to support the 
        execution activities.

    Work on SC reform is well underway to meet current challenges and 
the requirements set forth in the FY 2017 NDAA.
Conclusion
    Now more than ever, policy makers use SC as a critical tool to 
achieve our defense and foreign policy objectives. With reduced U.S. 
force structure and finite resources in a dynamic, rapidly evolving 
environment, it has become increasingly important to optimize allies' 
and partners' contributions to their own security and, by extension, 
U.S. security. The language in the FY 2017 NDAA provides the mandate to 
realize much needed reform to SC.
    For the last 70 years Security Cooperation has been a pillar of 
U.S. foreign policy. We must not, however, rest on our laurels. Today, 
the convergence of Congressional mandates with the Department's 
emphasis on strengthening our partners is a call to action. We must 
seize this opportunity to fortify our status as the Security 
Cooperation partner of choice.
    I welcome the Foreign Relations Committees' continued support and 
oversight of these ongoing initiatives. Distinguished committee 
members, I want to thank you again for the opportunity to appear before 
you today, and I look forward to your questions.


    The Chairman. Thank you all for your testimony.
    With that, I will turn to Senator Cardin to begin 
questions.
    Senator Cardin. Well, again, thank you for being here. 
Thank you for your service. And it is certainly encouraging to 
hear your conversations about how the collaborative process is 
working.
    I want to focus, if I might, on how you are using 
collaborative efforts and programming to deal with advancing 
human rights. The Congress, at times, put conditionalities on 
our security assistance programs. We are pretty specific as to 
what we expect before the release of funds. But can you tell me 
specifically where your strategies are in using our security 
assistance to make specific advancements in human rights in the 
countries which we are partnering with?
    Ambassador Kaidanow.  Senator, I think the way I would 
approach that is by saying--and again, I cannot stress this 
enough from my vantage point, having done this particular job 
for now almost a year and a half. The reason that I feel so 
strongly about the role of the State Department--I think my 
colleagues would agree, although I do not want to speak for 
them--is for precisely the reason you just outlined because, as 
I indicated in my opening remarks, we need to bring a holistic 
view of all of our foreign policy objectives into a discussion 
of any potential arms sale that we are about to make. The way 
we do that is, generally speaking anyway, through the State 
Department. That is our writ. That is our mandate.
    I believe strongly--and I think my colleagues at Defense 
would say the same that, even they know very clearly that we 
must integrate human rights and those concerns into our 
consideration of these sales simply because it is not just the 
impact they will have in the recipient country, it is a 
function of, again, do we want to see the same threats emerge, 
for example, with regard to countering violent extremism or 
countering terrorism. You do not want to see the same problems 
emerge over and over again as a function of the various systems 
that we----
    Senator Cardin. Well, we are dealing with a lot of 
countries. Can you give me some specific examples of where we 
have specific strategies to advance human rights?
    Ambassador Kaidanow.  I think in almost any country that we 
are talking about--you raised several in your opening remarks--
with all of those countries, we are very alert to how the 
specifics of the arms sales that we contemplate----
    Senator Cardin. So what are we doing in Nigeria concerning 
the Nigerian forces in the way that they conduct their campaign 
for civilian losses?
    Ambassador Kaidanow.  Without commenting on the specific 
sale itself, because we have not yet gone through the process 
of notification, I would say we are contemplating the full 
range of effects that we might have, again, if we pursue that 
sale. I believe strongly that we have had a very robust 
conversation with the Nigerian Government on the importance of 
human rights, observing human rights, and specifically in the 
area of concern in northeastern Nigeria. I think you have heard 
from the highest level of the State Department--and I can only 
reiterate it here--our commitment to keep doing that, to 
continue to have that dialogue, and it will be, as I said, 
featured very strongly----
    Senator Cardin. I think the sale has been noticed. I could 
be wrong, but I think it has.
    What I am finding what works is when you have specific 
standards you expect them to comply with. It does not have to 
be announced. It does not have to be broadcast, but you have to 
have ways of judging progress. I have not seen that.
    So I am going to ask if you would reply in writing to me--
--
    Ambassador Kaidanow.  Absolutely.
    Senator Cardin [continuing]. As to the strategies in the 
countries that we are dealing with, what are our objectives and 
the discussions that are taking place. If it has to be done in 
a classified setting, I am more than happy to do it in a 
classified setting. But I am concerned that I do not see that 
commitment as definitively as I want--I understand the overall 
issues--but as definitively as I think we need to make it. 
Certainly Nigeria is a country of major concern and interest.
    Mr. Harvey. Senator, could I add that from a Defense 
Department standpoint, as part of our NDAA reforms, we did 
have, for the first time, provisions in our train and equip 
programs that we have to incorporate human rights training for 
any of the forces that we actually train aground, which is a 
significant shift for us, not just lip service, but it has to 
be real training so they understand the importance of abiding 
by human rights standards.
    Senator Cardin. I appreciate that. There are many specific 
examples I hope that we will be able to share.
    I want to get to one--you all mentioned section 333 and 
compliance with that directive from Congress. That is a minimum 
standard. I would hope that there is a closer relationship than 
just complying with the congressional mandate. Tell us what 
type of cooperation are we seeing in the State Department with 
the Department of Defense on issues such as Ukraine security 
assistance or the special operations counterterrorism or 
irregular warfare activities. Do we have that same type of 
close consultation and input from the State Department?
    Mr. Harvey. Senator, yes, we do. I mean, at multiple 
levels, from the working level up to the principals in the 
White House, we do have the regular and active exchanges to 
ensure that we have a common understanding of what the 
challenge is and help develop common solutions for how we 
approach those. So I would say that level of interaction has 
been sort of instituted, if you will, beyond just what has been 
mandated from Congress.
    Ambassador Kaidanow.  I can only echo that. I think we have 
exceptionally close cooperation, especially on the issues that 
you mentioned. There is no daylight really between the two 
departments on those things.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    For Senator Cardin's reference, in Africa, through the 
Millennium Challenge, we have used conditions on human rights 
and labor law as conditions on qualifying for participation in 
the MCC very effectively. So your question on this is important 
because it should be the same thing for security and defense as 
well. And when you make those conditions, it makes the host 
country a part of the decision.
    Ms. Kaidanow, section 333 of NDAA--I should know this. You 
referred to it. I did not. So did General Hooper a minute ago. 
Was that a byproduct or brought about because of what happened 
in Benghazi?
    Ambassador Kaidanow.  No, sir. I think that the genesis of 
it--and again, I cannot speak to what those that put it 
together actually were aiming to accomplish, although I have to 
say that we very much stand behind it. We think it is a great 
effort.
    The idea, I think, was to try and do what we all know has 
to be done now, and that is the State Department has a wide 
swath of funds and authorities available to it to accomplish 
certain things in the security arena. The Defense Department 
increasingly now also. In fact, we have roughly the same amount 
of money under management depending on how you look at it. That 
is an enormous sort of charge to us, if you will, to ensure 
that we are doing whole-of-government work. We cannot be doing 
State Department efforts and DoD efforts. It does not work that 
way. Our partners do not look at it that way, nor should they. 
We should be aiming to have an approach that--not just 333.
    I mean, our hope, again as I said, is to broaden this, and 
in fact, in practice we do it for other authorities. But the 
idea is to bring forward a process that identifies our 
priorities right at the outset, which we are doing right now in 
the steering committee that we discussed, for a whole range of 
priority countries, decide what makes sense for us, whether 
with regard to State authorities and funds or with DoD 
authorities and funds, and how do we ensure that those are 
complementary so that we are not working at cross purposes, we 
are not duplicating effort, we are not doing anything, and that 
we are providing what we need to both for our partners but 
primarily for U.S. national security interests. That is the 
idea.
    Senator Isakson. In your testimony, you said State should 
not only see that DoD concurs but is part of the formulation of 
the game plan. Is that correct?
    Ambassador Kaidanow.  Yes. First of all, we believe State 
concurrence is really an essential element because it gives us 
that visibility and that ability to say, at the end of the day, 
that critical foreign policy aspects like human rights are 
being adequately addressed.
    But I think even more than that what we want is to ensure, 
as we are doing with 333, that we are starting all the way at 
the beginning because if, you know, at the end of the day, a 
program comes to us that DoD has already formulated and they 
have gone through a long process and it is very arduous and it 
is not easy to do, and the combatant commanders have had their 
say, if they come to us at the end of all of that and we do not 
have a full understanding of how they got there in the first 
place, there may be unintended consequences. There could be 
things that happen that, again, from a budgetary standpoint 
there will be implications down the road for the State 
Department. To us, it seems as though the more productive way 
to be doing this, again, is to be looking at the outset at how 
do we bring all this together.
    So 333 is, if you will, sort of the most robust effort we 
have undertaken at something this important. And I would argue 
it is that important. But, of course, again my colleague at DoD 
can speak to it as well.
    Mr. Harvey. Senator, I would agree with everything 
Ambassador Kaidanow said. It only makes sense to have both the 
State Department and DoD involved at the front end of 
development of any project because it is too late if we wait to 
throw it over the transom because we may be far afield from 
what the foreign policy direction would be from the State 
Department. So their involvement at the ground level is 
absolutely essential.
    Just to answer your question on the origin of 333, 
essentially before 333, we had a multiple number of authorities 
related to individual strands of activity in train and equip, 
counter WMD, counterterrorism, counternarcotics, border 
control. What we recognize in the real world is those problems 
do not come in sort of stovepipe fashion. They overlap in many 
ways. And so what we did, with the help of our oversight 
committees, is create an authority that can address all those 
in combination as a collective whole, as they appear in the 
real world.
    Senator Isakson. The reason I brought up the Benghazi 
situation--and that is a sad chapter for all of us, and I am 
not trying to revisit a sad chapter. But I want to make sure we 
do not have a second chapter sometime in the future. And when 
you talk about coordination and planning, do you feel like at 
DoD and at the Department of State that we are in a better 
position today for the security of our embassies across the 
world and have plans ready so that we can get backup help to 
our ambassadors, should they need it?
    Ambassador Kaidanow.  Obviously, I am not the responsible 
individual at the State Department, but I will tell you, I 
mean, I feel more confident, and certainly I believe that our 
Department's highest leadership would tell you that this is a 
huge priority for them. The Secretary starts every meeting that 
he convenes with upper level management in the State Department 
by talking about security issues.
    Senator Isakson. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thank you to the witnesses. Your written testimony and 
the questions of my colleagues have been helpful on this issue 
of trying to figure out how to streamline, consolidate, make 
what we do in security assistance more effective.
    I want to ask a real practical question about a concern I 
have right now. The results are not yet in on the referendum 
that was held in Kurdistan yesterday in northern Iraq about the 
nonbinding referendum around independence, but the likely 
results are going to be a very strong support expressed in that 
referendum.
    The security assistance we currently provide to the Kurds 
is sizable and it is routed through the Baghdad government. I 
think it is probably maybe about $2.2 billion in the last two 
appropriations, which are combined to Iraq for security 
assistance that can be used by the central government, the 
tribal leaders, or Kurdistan.
    How might--as we are contemplating how to do security 
assistance, we have to deal with our own internal challenges, 
but also a situation like the Kurds, who have been good 
partners. That is going to create a potential challenge. How 
are State and Defense contemplating this if Baghdad reacts 
negatively to the referendum result and tries to block or slow 
down assistance passing through Baghdad to Erbil? The Kurds 
have been huge partners of ours in the anti-ISIS battle. Can 
you talk a little bit about DoD and State Department 
perspectives on that referendum and how that might affect 
security assistance in the region? And that is the only 
question I am going to have. So now I will just let you all 
tackle that one.
    Ambassador Kaidanow.  Thank you, Senator. It is funny 
because I ran into my colleague, Brett McGurk, in the parking 
garage just as I was coming over here, who is by far better 
positioned to answer some of those specific questions that you 
just asked.
    Look, I think we have made clear that we find it 
unfortunate that the Kurdish authorities have chosen at this 
moment to undertake this particular referendum. We regard the 
authorities in Baghdad as being--and we regard the integrity of 
Iraq as being quite important.
    I will defer probably the questions on what the implication 
of some of the security assistance issues may be until we see 
what the outcome of all this is. Clearly we are having a 
conversation. We are always having that conversation from the 
policy vantage point not just on that specific issue, but I 
will say more broadly on Iraq issues writ-large. Just this past 
week, I was dealing with another issue on tanks and so forth, 
which I will not get into in this setting, but we are happy to 
brief you on those things too.
    You know, look, these are big issues. The Government of 
Iraq--we feel it is incredibly to support them in any way we 
can. That said, there are going to be issues related to what 
they can afford, what the sustainability of some of that 
assistance down the road is going to be, how they apportion it, 
what the implications of the referendum and some of the 
associated other political issues may be. There are lots of 
questions associated with all of this. So rather than get into 
the minutiae of all that, I think we would be happy to give you 
a more full briefing if you ask for it. We would be more than 
pleased.
    Senator Kaine. Thank you.
    How about from the DoD perspective?
    Mr. Harvey. I think, Senator, I echo everything that 
Ambassador Kaidanow said. I would say our near-term focus is 
and has to remain on the counter-ISIS challenge. And so 
minimizing the complications and distractions from that central 
focus I think is our priority now from a DoD standpoint, and we 
can get you greater detail on sort of the implications of the 
vote in Kurdistan after this session, sir.
    Senator Kaine. Do you believe the pendency of the 
referendum--could you see a need to the degree to which the 
pendency of the referendum tangibly harmed the anti-ISIS fight?
    Mr. Harvey. Theoretically, but I think we are working 
collectively as a U.S. Government to ensure that all the 
primary actors on the ground sort of stay focused on that 
primary challenge. So we will do everything we can to prevent 
that, and I have confidence we will be able to do that.
    Senator Kaine. General Hooper, do you have anything to add 
on this issue?
    General Hooper. No, sir.
    Senator Kaine. Okay. Thank you.
    Thank you, Mr. Chair. I cede the rest of my time.
    Senator Gardner [presiding]. Thank you, Senator Kaine.
    Senator Young?
    Senator Young. Thank you.
    Ambassador Kaidanow, I want to ask you a number of 
questions about the legal authorities that inform your office's 
work, your work and circumscribed as well.
    So to begin here, according to the Department of State's 
website, in addition to undertaking a legal review of each of 
the proposed arms transfer deals that comes before your office 
and third party transfers, the Political-Military Affairs 
Bureau also applies the conventional arms transfer policy laid 
out in Presidential Policy Directive 27. Is that correct?
    Ambassador Kaidanow.  Yes.
    Senator Young. So that policy has presumably been applied 
to arms transfers to Saudi Arabia. Is that correct?
    Ambassador Kaidanow.  Yes.
    Senator Young. That policy requires the administration to 
take into account a number of criteria. Correct?
    Ambassador Kaidanow.  Absolutely.
    Senator Young. So I have those criteria in front of me 
right here. One of the criterion is that State, among other 
things, must take into account the, quote, human rights record 
of the recipient. Agreed?
    Ambassador Kaidanow.  Absolutely.
    Senator Young. Another criterion of this policy is you say, 
in effect, that State must consider, quote, the likelihood that 
the recipient would use the arms to commit human rights abuses 
or serious violations of international humanitarian law or 
identify the United States with human rights abuses or serious 
violations of international humanitarian law. Agreed?
    Ambassador Kaidanow.  Yes.
    Senator Young. I will also note that section 502(b), which 
you are likely familiar with, of the Foreign Assistance Act of 
1961 limits security assistance to a country which engages in a 
consistent pattern of gross violations of internationally 
recognized human rights unless the President certifies in 
writing to the Speaker of the House, to the chairman of this 
committee, and others that extraordinary circumstances exist.
    Ambassador, has such a certification been submitted to this 
Congress to transfer arms to Saudi Arabia?
    Ambassador Kaidanow.  Well, again, it depends on, I guess, 
what we are talking about and what time frame and so forth. In 
the past, of course, we have made arms transfers to Saudi 
Arabia.
    Senator Young. I am talking about the arms transfers that 
have occurred in recent months during this Congress from the 
United States of America to Saudi Arabia.
    Ambassador Kaidanow.  In the past, yes, we have made some 
of those transfers.
    Senator Young. Including this most recent arms transfer. It 
is a yes or no question.
    Ambassador Kaidanow.  Yes, sir.
    Senator Young. All right. Thank you.
    So as Acting Assistant Secretary of the Bureau of Political 
and Military Affairs responsible for implementing this policy, 
State has gone ahead, as you said, and consistent with the 
conventional arms transfer policy, as well as section 502(b), 
which I have invoked, what is State's assessment regarding 
Saudi Arabia's actions in Yemen? That is, has Saudi Arabia used 
U.S. weapons in Yemen to commit human rights abuses or serious 
violations of international humanitarian law? Yes or no?
    Ambassador Kaidanow.  Senator, we have had a chance in the 
past to come before the committee and the members of the staff 
to talk about some of this, not all of which I can discuss in 
this setting. But you asked the question, and I will tell you 
we have expressed concerns to the Saudi Government and we have 
had the conversation with them on many of these issues. And 
indeed, we are trying to address them as we contemplate any 
sales to Saudi Arabia.
    Senator Young. So you are in charge of the office that is 
supposed to take into account under our laws these criteria. I 
know it is a multifactor test, as the lawyers say. You balance 
the various factors against one another. So it is not a binary 
test. So it is possible that there were human rights 
violations, violations of internationally respected human 
rights law. And you are not foreclosing that possibility here 
today. Is that correct?
    Ambassador Kaidanow.  I think what I am saying is that we 
have had that conversation with the Saudis and we have had the 
conversation----
    Senator Young. Are you foreclosing it?
    Ambassador Kaidanow.  Are we foreclosing----
    Senator Young. Are you foreclosing the possibility that 
human rights violations have occurred?
    Ambassador Kaidanow.  No. In fact, I think the Saudis 
themselves have indicated that in the past that they have done 
some things that they find problematic and that they are trying 
to address some of those issues.
    Senator Young. Okay.
    Ambassador, thank you for indulging all these questions.
    On June 28 at my direction, my staff asked the Department 
of State for an advisory legal opinion with respect to Saudi 
Arabia's refusal to permit the delivery of cranes to Hodeidah, 
the major port in Yemen. We think that that may very well 
constitute a violation of customary international humanitarian 
law rule 55. That is the international legal provision that 
prohibits denying lifesaving food or medicine into an area in 
furtherance of war aims.
    And so on September 18, almost 3 months later, my office 
was notified that State was not able to provide me with that 
advisory legal opinion. Can you explain why State has not 
provided me that legal opinion or anyone on this committee to 
my knowledge?
    Ambassador Kaidanow.  I am sorry, Senator. I do not have 
the exact, precise rationale for why that was not provided to 
you in a timely way. I will have to go back and ask and bring 
that answer to you.
    Senator Young. Okay. Thank you for your indulgence. I will 
just note that I will be submitting a question for the record 
related to the excess defense articles provisions and the 
transfer of HUMVEEs.
    Senator Gardner. Thank you, Senator Young.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you all for being here today.
    Let me follow up on the questions from Senator Young 
because I share all of his concerns. Yemen currently is 
arguably the worst humanitarian catastrophe in the world today, 
an epidemic of both famine and cholera that the country has 
never seen before. And let me maybe take the conversation out 
of the weeds a little bit and ask a simple question to either 
you, Ms. Kaidanow, or you, Mr. Harvey.
    What clear, explainable, definable concessions have we 
extracted from the Saudis with respect to the conduct of this 
war inside Yemen since the announcement or in coordination with 
the announcement, of the biggest arms sale to Saudi Arabia 
celebrated by the very high profile visit of President Trump to 
Riyadh earlier this year?
    Nothing has seemed to have changed there. The humanitarian 
catastrophe gets worse every single month. It does not get 
better. Senator Young and I have asked this very simple thing 
of the Saudis, to let these cranes that the U.S. taxpayers paid 
for be delivered to Hodeidah in order to more efficiently move 
humanitarian relief into the country. None of that has been 
addressed.
    So what specific concessions have we gotten from the Saudis 
with respect to the conduct of the war in Yemen as a result of 
the massive military aid, and what role has State or Department 
of Defense played in that?
    Ambassador Kaidanow.  Well, first of all, let me just again 
emphasize that I think we are deeply committed to ensuring that 
the Saudis understand the importance. And the Saudis themselves 
have said they understand the importance of complying with the 
Law on Armed Conflict. It is essential and they----
    Senator Murphy. Who cares what they say?
    Ambassador Kaidanow.  Understood.
    I think our judgment has been that engaging with them and 
providing them the means to actually effectuate some of that is 
the best way to go.
    Senator Murphy. So specific examples.
    Ambassador Kaidanow.  You may recall that one of the 
largest pieces and one of the first things that we moved 
towards notification after the announcement of the arms sale 
that you mentioned was a $750 million training case to the 
Saudi armed forces. And that training case involved a large 
component that was training specifically on the Law of Armed 
Conflict. So it was not as though all we gave them was the 
means to pursue the conflict itself. We are trying to give them 
an understanding of how do you do that because it is not so 
much about the weapons per se as it is the way you implement 
and utilize the weapons. My colleagues at Defense can probably 
speak more to that than I can.
    And in fact, we have had a group of trainers that have now 
gone on the ground for the first part of this training case 
that we notified to try and get that process underway.
    So we are very alive to it. The Saudis are alive to it. I 
recognize that the proof is in the pudding, that they are going 
to have to show that those actions comport with what they say. 
That is what we are committed to doing with them.
    Senator Murphy. I share Senator Young's concerns here. I 
think that our policy in Yemen has been an epic failure, and I 
understand the Saudis spend a lot of money coming up here and 
making promises about how they are going to change the conduct 
of this war. They have not. And they have refused to do very 
simple things that could alleviate the horror that exists in 
Yemen today. And we as a country--these are my words, not 
anyone else's--are complicit in many of the worst things that 
are happening there.
    Let me ask you a broader question. So right now, as you 
mentioned, the capacity is split between DoD and State, moving 
from a time at the beginning of the 2000s when about 80 percent 
of this aid came through the Department of State. Just explain 
to us why this capacity still needs to be split. Every military 
conflict that we are involved in overseas has a political root 
at the bottom of it. This is not the 1800s when armies march 
against each other and there is a peace treaty. There is a 
political problem at the bottom of all of these military 
conflicts.
    So now that we are sort of in the process of winding down 
the two biggest conflicts in Iraq and Afghanistan, why would we 
not just return this capacity to the State Department? Why 
would we not go back to 80 percent of this capacity in the 
State Department? Why split it half and half with Defense and 
State?
    Ambassador Kaidanow.  Well, again, I think my colleague 
addressed some of this in his opening remarks.
    I mean, I think the judgment has been--I cannot speak to 
what Congress' intention was, but I think the idea was because 
there are specific train and equip type issues, operational 
issues, and the flexibility and the speed with which a lot of 
this is necessary to deploy made it extant and because the 
nature of some of these threats seems to be, I think, both 
emergent and urgent and also dealt with, at least in part, 
through military means.
    Our argument has been, along the lines of what you just 
said, that it all has a political component. And therefore, as 
we progress down this road, even if that money is allocated or 
those authorities are allocated to DoD, the State Department 
should retain an essential role at least of concurrence and, 
again, arguably from our vantage point and as Todd has 
indicated, the earlier, the better in that process frankly from 
a joint formulation standpoint and joint development 
standpoint. It makes sense for all the reasons that you 
articulated, and particularly understanding your concerns on 
Saudi Arabia, and on any issue, it makes sense for the State 
Department to be at the outset of that process. You can bring 
those concerns to the State Department. We will be responsive.
    It is a holistic effort. It should be a holistic effort. 
There are some things DoD does better than we do, and there are 
some things that we do better, I would argue. And there are 
different purposes oftentimes for those fundings. FMF is 
designed to accomplish addressing long-term capability gaps on 
the part of our military partners overseas. Some of the 
authorities that DoD has are far more targeted. They need to be 
moved out the door quicker. They are not set up necessarily for 
long-term development of capability building.
    We need to, though, think about all of that as we plan 
forward. You cannot just do the one or the other. You need to 
understand that entire array of authorities and then try and 
bring them together and particularly if we are going to face 
increasing resource challenges, which I think we probably will.
    So that is, I think, the rationale for doing it in a way 
that is respectful of DoD's abilities, respectful of our 
particular expertise, but also brings it together in a way that 
makes sense for all of us and for you, I hope.
    Senator Murphy. Thank you.
    Senator Gardner. Senator Rubio?
    Senator Rubio. Thank you.
    I want to focus a little bit on the international narcotics 
and law enforcement funding. In particular, we have seen this 
extraordinary rise in the production of coca, cocaine, in 
Colombia, and we know that is going to be transited here 
primarily through a land bridge through Central America but 
potentially through air routes, as well as through the 
Caribbean region. And at the heart of the challenges facing El 
Salvador, Guatemala, and Honduras in particular is the role 
that these transnational groups play on the ground, and each 
has struggled in its own way to confront it. I am most 
familiar, of the three, with the Honduran efforts.
    And obviously, I also look at the Colombian model of 
assistance over the years as something that people have pointed 
to as a model of success. And in fact, in many ways, the 
Colombians have become force multipliers for us. They are now 
on the ground in those countries in Central America providing 
assistance, although there is some concern about some recent 
decisions they have made with their own program vis-a-vis the 
peace process there that some attribute to the rise in cocaine 
production.
    So my first question is just an analysis of where we are in 
terms of how that overlays with our policies in the region 
because ultimately one of the, I think, most compelling 
arguments is that the U.S. southern border does not really 
begin on the Mexican border. It starts much sooner than that in 
places like Guatemala and the like.
    So three quick opportunities here to discuss. Number one, 
how would you assess the progress of those programs and where 
they stand today? Obviously, each country has different 
challenges in Guatemala, Honduras, El Salvador.
    Number two, do we believe that the capacity, even the 
increased capacity of these nations is quickly going to be 
overwhelmed by the massive amount of cocaine that needs to be 
moved over the next number of years?
    And number three, the potential to partner with the Mexican 
Government, who has their own concerns about instability just 
south of them, and how those three things play out and the 
interplay between the assistance we provide and our foreign 
policy aims for the region.
    I know that is a three-part question, but they are all 
interrelated.
    Ambassador Kaidanow.  Well, I will take a quick stab at 
giving you an answer, although again I would have to just defer 
to some of my colleagues who deal both with international 
narcotics and law enforcement and also with the western 
hemisphere affairs.
    But I do think we are making progress. I recognize the 
challenges that you have outlined. And I would also say, again, 
as we look at the entire array of countries that we are 
assisting, we are looking at all the foreign policy elements, 
and that involves human rights issues, other kinds of issues, 
governance issues, and so forth. But I do think with regard to 
the international narcotics effort, we are making some 
progress. This is another area where I would argue, again, we 
have authorities and funding. DoD has authority and funding. It 
only makes sense for us to be, again, bringing those efforts 
together. Section 333 actually addressed some of those 
authorities, not all of them but some of them. And that is 
another, I think, set of issues that we are now sitting down at 
a table trying to look at in terms of what we can do and what 
DoD can do, identify again some priority elements within our 
strategy to try and make sure that the resources, the proper 
resources, are addressed in those directions.
    By the way, you mentioned Colombia. Just to say, I mean, 
one of the things that I think is under-appreciated sometimes 
is that we not only do security assistance writ-large, what we 
do is stabilization. And in support of the peace process, for 
example, in Colombia, the State Department is very active in 
terms of demining and removal of unexploded ordnance in some of 
the areas where the peace process has indicated they need that 
help. And we did a fair amount together with the Norwegian 
Government to put in place a donor effort that will lend itself 
to that. So we are actually looking not just at the security 
assistance per se in terms of aiding the relevant forces on the 
ground, it is also in support of a larger effort at 
stabilization that will then create an environment, we hope, in 
which these things will not reproduce themselves.
    Senator Rubio. I guess the only follow-up I would have on 
that is one of the issues we run into, as we discuss these 
programs on an annual basis, is in many of these nations still 
the military becomes the default law enforcement organism as 
opposed to traditional law enforcement for a variety of 
different reasons.
    And how would you assess where we stand in terms of 
capacity building for their own justice system, in essence the 
training and equipping of police officers and other law 
enforcement officials, their court system, their systems of 
justice? How does that generally play out in the broader--
everything from prisons to prosecutors to defense attorneys for 
that matter? How do those things interplay and what do we do to 
assist in that regard?
    Ambassador Kaidanow.  I cannot agree with you more. I think 
my INL colleague, Ambassador Bill Brownfield, would argue the 
same thing. I mean, this has to be a longer-term approach, and 
it cannot be simply military-focused. We must do what we can to 
build rule of law throughout the countries of concern.
    I think we are making some progress, I will tell you, but 
it is not uniform. And I think we are going to have to work 
harder with them together in partnership. It is a long-term 
problem, and we are not there yet, that is for sure. But we 
recognize the importance of everything you just said.
    Mr. Harvey. Senator, excuse me. Part of that equation is 
also working with our defense ministry counterparts in these 
countries to understand the proper role of the military in a 
government and society led by civilians. So helping them 
understand sort of their proper subordination, if you will, to 
civilian leadership is part of that equation that DoD has 
programs that are dedicated to.
    Senator Gardner. Senator Booker?
    Senator Booker. Thank you, Mr. Chairman.
    Ms. Kaidanow, could I just start with something that was a 
bit of a surprise--the announcement that Chad has been included 
in the administration's travel ban? And you mentioned Chad in 
your testimony. The White House itself stated that Chad is--and 
I quote--an important, valuable counterterrorism partner of the 
United States. And the State Department itself in its report 
stated that the Chad Government continues to prioritize 
counterterrorism efforts at the highest level. You know Chad's 
role in AFRICOM. They are incredibly involved in 
counterterrorism efforts in the region. You talk about 
Flintlock in your testimony. It supports French-U.S. military 
deployments in the region. It has been critical in efforts 
against Boko Haram. Chadian troops played a major role in 
countering Al Qaeda's operations in Mali. They deploy over 
1,000--I think about 1,400--troops.
    And so I guess the specific questions I have is this 
designation just seems arbitrary to me. And if we have concerns 
about weak border security and screening capacity, clearly 
other countries facing similar challenges, Mali, Central 
African Republic, Niger, Nigeria--why are they not on the 
travel ban? And then Sudan--clearly we have some significant 
issues. So I am hoping you can shed some light on this for me, 
and I am really curious if the State Department and the DoD 
have input into this decision.
    And then finally--and again, this is just press reports 
from this morning about the whiplash that Chad leaders like the 
president are having who are so influential and such critical 
partners. Does this really in some ways undermine our 
multilateral efforts that have been so productive against Al 
Qaeda and Boko Haram?
    Ambassador Kaidanow.  Senator, I would be happy to take the 
question. I will be honest with you and tell you that I cannot 
give you a full rationale sitting here this morning, at least 
not in this setting. But we would be happy to give you, I 
think, more of the thinking on that.
    I will say, though, that as you indicated in your remarks, 
we do think of Chad as an important partner for us on CT 
efforts in a variety of ways. It is certainly my hope that none 
of that will change. We are looking to, I think, be cooperative 
with Chad, and whatever requirements they can provide for us in 
order to ameliorate or to address some of these issues, I am 
quite confident they will work with us in order to try and do.
    Senator Booker. So to the chairman and ranking member, you 
know, I have a lot of frustration when I hear responses that we 
will get back to you.
    Senator Paul and I wrote a letter to Secretary Tillerson in 
June expressing our deep disappointment about the 
administration's decision to proceed with the sale of arms, 
specifically the A-29 attack aircraft to the Nigerian 
Government. We requested a briefing as well about the sale to 
help understand how this determination was made. We cited in 
that letter a lot of detail, a lack of progress from 
authorities in Abuja, about the government's investigation into 
the December 2015 alleged massacre by soldiers of over 300 
Shiite Muslims. You mentioned this, Senator Cardin, in your 
remarks. I mean, it is disturbing what we are seeing. We cited 
the incomplete investigation into the January 2017 attack on an 
IDP camp in Rann by the Nigerian air force, killed over, again, 
200 refugees, as well as the lack of progress in our fair 
investigation into the 2014 killings by the Nigerian security 
forces of over 600 mostly unarmed detainees, including 
children.
    We wrote--Senator Paul and I wrote--that there continues to 
be additional allegations of corruption, abuse, misconduct 
throughout the Nigerian military. We asked in our letter that 
the State Department reconsider the decision to sell A-29's to 
Nigeria until some kind of reforms are put in place.
    And so I have sort of heard this before, whether it is the 
questions are asked--bipartisan questions asked by my 
colleagues about what is going on in Yemen. I have not been 
assured that any of the reforms or safeguards are being put 
into place before these sales are made.
    And so I understand that there are new reports now of 
military equipment granted by the United States, from MRAP 
vehicles provided for use against Boko Haram that are being 
used in the southeast and apparently to intimidate people 
agitating for independence.
    And so I really appreciate the seeming willingness to be 
cooperative, but we have a role to play. And I have growing 
frustrations. I know I am new on this committee. I am damned 
near sitting in the audience here so far on the end. But this 
is absolutely unacceptable for our role in accordance with the 
Constitution.
    And so I do not understand. I cannot even get a briefing on 
this issue, whether it is in this context or another. I am just 
looking for someone to give me actually information because 
according to the Constitution, the administration cannot 
continue to engage in these kind of activities without our 
authorization. And as Senator Murphy said, we are complicit in 
some of the most horrific things that are going on on the 
planet earth right now by regimes who are not acting in any way 
in accordance with our values as a country or our interests for 
our national security. And you even alluded to the fact that we 
could be creating, when it comes to terrorism, the very problem 
we claim to be trying to end.
    And so this is absolutely unacceptable to me that we allow 
representative after representative to come before this 
committee and make promises that we are going to get 
information or we are going to have hearings and we get nothing 
in return. And I am frankly fed up. And the consequences of the 
lack of information right now is horrific what is going on in 
Sudan, what is going on in Yemen, what is going on in Nigeria. 
It is horrific what is going on to people who are craving 
freedom and looking to the United States.
    And so I just want to register my absolute frustration. And 
the responses here--no disrespect--are unacceptable when we get 
talk and not even a meeting, not even a briefing that is of any 
substance and answers the questions from the United States 
Senators on both sides of the aisle.
    Thank you, Mr. Chairman.
    Senator Cardin. Mr. Chairman, if I might, I just want to 
share Senator Booker's frustration. As ranking member, I have 
had to exercise my authority to call the Secretary of State to 
get some of this information, when I should be getting it from 
the people who are directly involved in making these policies. 
I have had less than satisfactory assurances in regards to 
commitments that I thought were previously made in regards to 
arms sales of countries.
    So I would just urge our panelists who have the direct 
responsibility, if you believe that the legislative branch of 
government is part of this process, you need to do a much more 
effective job in communications but, more importantly, living 
up to the broad statements that you are making with specific 
progress and goals that we are achieving to prevent these types 
of complicities in human rights violations of other countries.
    Senator Gardner. Thank you, Senator Cardin. I think, again, 
it just brings us back to the point of effectively managing a 
multibillion effort, making sure it is organized and managed 
properly. So thank you.
    Senator Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    Ambassador, as Secretary Tillerson reorganizes the State 
Department, can you confirm for the committee that there are no 
plans to move the security assistance oversight function of the 
Bureau of Political-Military Affairs to the Department of 
Defense?
    Ambassador Kaidanow.  Senator, not that I am aware of. But 
that is not to say--I mean, I do not have the full array of 
understandings that you are looking for, I think, with regard 
to what the final output of that redesign process will be. I 
believe the Deputy Secretary actually will be coming up to the 
Hill on the House side, I believe in the next day or so, to be 
talking about some of that.
    But, I mean, the State Department regards that role as an 
essential one, as we have described today, and I believe, as 
far as I can tell anyway, that the upper levels of the State 
Department, including the Secretary and Deputy Secretary, still 
feel that way.
    Senator Merkley. Thank you.
    The administration has indicated it plans to provide lethal 
military assistance to the Government of Ukraine. And there is 
a variety of views as to whether that assistance either enables 
the Government of Ukraine to more effectively oppose the forces 
occupying the eastern portion of the nation or whether it 
triggers a Russian response at a higher level leading to 
greater bloodshed and greater support for the forces that 
oppose the Government of Ukraine. What is your view of this?
    Ambassador Kaidanow.  Well, again, it is an active 
discussion, as you indicated. I think the policy has yet to be 
fully decided. It is something that our two departments are 
engaged in discussing right this minute together with the White 
House. And before the White House and the President make their 
decisions on this, I would hesitate to take a position. But I 
think, again, there are considerations that you have outlined 
and there are others as well that we have to look at in the 
entirety of these decisions. They are important decisions.
    And by the way, just to reference what Senator Booker and 
the ranking member said, at any moment if you wish for a 
briefing on any particular issue, I am happy to provide it. I 
think the State Department is committed to that, as are my 
colleagues at DoD. And on Ukraine, I could offer the same. But 
I think in this setting it is a little hard to get into all of 
the back and forth.
    I would say, again, that we believe strongly that the 
Ukrainians are important partners, friends of ours, and we want 
to be sure that their defense is adequately taken care of.
    Senator Merkley. I will just say my experience has been 
extremely frustrating with the Department of State, and when 
you say they are committed, those are, at this point, empty 
words.
    One of the things that occurred recently--this committee 
considered a bill related to the West Bank, and we were 
promised a briefing from the Department of State over basically 
the types of projects that were being undertaken both through 
nonprofits and through the Palestinian Authority. And the 
briefing was a complete fiasco. No information provided despite 
the fact the committee was in the middle of wrestling with how 
to sustain productive activities on the West Bank while sending 
a very strong message to the PA about their horrific policy of 
rewarding the families of those who commit acts of terrorism. I 
mean, that is just an example. And my committee members, I 
think, could each cite some other examples.
    So it is important to follow up the philosophy you just 
expressed with actual action.
    Turning back to the Ukraine--and, Mr. Harvey, the President 
of Ukraine has called for U.N. peacekeepers to be in eastern 
Ukraine. Is the United States supportive of that request?
    Mr. Harvey. Senator, I will have to take that question. I 
am not in a position to answer that right now.
    Senator Merkley. Is there any sense for any of the three of 
you that that request changes the dynamic in terms of whether 
we provide military assistance to the Ukraine Government?
    Ambassador Kaidanow.  I think, Senator, we are looking at 
the entire array of issues with regard to Ukraine. What we are 
hoping to see is fulfillment of the Minsk requirements. We are 
looking to be supportive of that process. As you know, we now 
have a special envoy appointed by the State Department, Kurt 
Volker, who is out there doing his level best, I think, to try 
and engage with his Russian counterparts and with others on 
these very topics. It is an issue of real concern and great 
interest to our Secretary, and so with regard to the policy 
overall, I can assure you of that. And as we contemplate 
whatever we will do with regard to security assistance, it will 
fit into that larger picture.
    Senator Merkley. What are the forms of lethal military 
assistance that would best serve our goals of supporting the 
Ukrainian Government while not provoking, if you will, Russian 
escalation?
    Ambassador Kaidanow.  I think that is the open question. I 
mean, that is what we are trying to grapple with.
    Senator Merkley. That is the question. That is why I am 
asking it.
    Ambassador Kaidanow.  No. I understand. We are looking at 
the various options, and I think what we are trying to decide 
again is what will serve the political purposes most 
adequately. I do not have an answer for you now because there 
is no actual decision.
    Senator Merkley. Lieutenant General Hooper, would you like 
to comment on that?
    General Hooper. Senator, that is fundamentally a policy 
question, and I would defer to my colleagues to respond to 
that.
    Senator Merkley. Well, it is a policy question in which 
military insights are certainly very relevant. I am sure the 
military side is very engaged in that, and so what are your 
insights?
    General Hooper. As we do with each and every case where we 
assess what our partners might need and what might be 
appropriate, we would follow the process we always do and which 
we have articulated from the very beginning, which is to 
collaborate in a transparent fashion in order to determine what 
is best appropriate and what will best address both our 
security objectives and the overall policy objectives.
    Senator Merkley. Mr. Harvey, when are we going to get a 
detailed proposal of what best fulfills the administration's 
plans to provide lethal military support to the Government of 
Ukraine?
    Mr. Harvey. I think as Ambassador Kaidanow had indicated, 
Senator, that is an issue that is being debated at senior 
levels of the administration.
    Senator Merkley. While that is being debated, when are we 
on the committee going to get insights from you all since we 
are not hearing any today?
    Mr. Harvey. I think as we are close to making a decision I 
think would be the appropriate time to come over and give you 
an update on what----
    Senator Merkley. Any sense of the timing on that?
    Mr. Harvey. I am sorry?
    Senator Merkley. Any sense of the timing on that?
    Mr. Harvey. I do not have that for you right now.
    Senator Merkley. Thank you.
    Senator Gardner. Thank you, Senator Merkley.
    And I will make my question quick here. Just a question on 
the Philippines. Could you describe to me--the appropriate 
witness describe to me--the assistance the United States is 
currently providing to the Philippines?
    Ambassador Kaidanow.  We are providing an array. Actually I 
should probably defer to my DoD colleagues on this because they 
can give you a broader swath of kind of what we are doing.
    But just in a general sense, again we believe strongly and 
I think Secretary Mattis--again, not to speak for my 
colleagues--and Secretary Tillerson believe that we should be 
supporting the Philippine Government with regard to the 
insurgency that they are now facing in a very, very sensitive 
and important place in the Philippines.
    And I think, at the end of the day, we are doing what we 
can, again, to give them not just military support--and I want 
to make sure that everybody understands this--we are also 
looking at ways to do stabilization so that once they are able 
to, we hope, defeat the insurgents, they will have the means to 
also give the population there some prospect of greater 
prosperity and greater peace and prosperity, I should say, 
which will allow then, again, the situation to calm down over 
the long term. We are looking at a whole variety of things.
    Senator Gardner. Have we sent additional assistance to the 
Philippines recently in terms of military assistance?
    General Hooper. We are currently sending assistance to the 
Philippines, and the objective of that in support of our 
policies is to not only increase the lethality and capabilities 
of the Philippine military but also their ability to stabilize 
the situation and also assisting them in institution building 
so that their troops can not only stabilize the situation but 
ensure that the violence ceases and that civil authority and 
civil stability is allowed to flourish.
    Senator Gardner. And have they made additional requests for 
assistance regarding ISIS or related groups in Mindanao?
    Mr. Harvey. We are in discussions with the Filipino 
Government in that regard. Obviously the challenge in Marawi is 
not limited to that particular location. So we have concerns 
about it spreading beyond that particular engagement right now. 
And so we are discussing how we might best address it through 
additional assistance.
    Senator Gardner. Are those discussions coming from requests 
from the Philippines or did we proactively seek those?
    Mr. Harvey. I think you could say it is probably initiating 
from both sides of the recognition that it would be useful for 
us to cooperate in that regard.
    Senator Gardner. Thank you.
    Senator Cardin. Can I just ask one quick question?
    Senator Gardner. Yes, please, Senator Cardin.
    Senator Cardin. Just one point. I understand the policy on 
congressional review and disapproval and the law. Do you all 
believe that it is helpful in furthering the goals for the 
congressional review and disapproval process?
    Ambassador Kaidanow.  Absolutely. We are incredibly, as I 
said in the opening remarks, appreciative of the congressional 
role, and I think it is an essential oversight function that 
you have clearly made your views known today. And we respect 
that and we look to it as a guideline for how we do some of our 
work.
    Senator Cardin. Mr. Harvey?
    Mr. Harvey. I would concur completely with what Ambassador 
Kaidanow said. It is an essential part of our policymaking to 
have the inputs.
    Senator Cardin. General?
    General Hooper. It is absolutely an essential part of our 
policy process.
    Senator Cardin [presiding]. I was hoping to hear that from 
you because our questions here are well intended, and we feel 
very passionately about the values of this country and using 
every opportunity we have to advance those values. And that is 
why you hear the passion from the members of this committee, 
and that is why it is important that the close relationship 
between the State Department and Defense be maintained. And 
that is, I think, the reason behind the National Defense 
Authorization Act amendment.
    So explain to me why you would think of taking away from 
Congress the ability to deal with small arms, including the 
type of weapons that are used by snipers, particularly when 
there have been two highly visible small arms sales, one that 
was withdrawn by the administration as it relates to Turkey, 
the other which involves the Philippines and their 
extrajudicial killings of their civilian population and their 
drug policy? Why would you think that would be helpful to take 
away congressional review? Or maybe you do not think it is 
helpful.
    Ambassador Kaidanow.  Senator, you are referencing, I 
think, the question of whether we transfer responsibility from 
State to Commerce for a specific category or several categories 
of weapons. And this is part of a larger effort that we have 
undertaken over the last, oh, 5, 6 years.
    Senator Cardin. But do these arms not affect the policy 
considerations we are talking about here, particularly the 
message we are sending?
    Ambassador Kaidanow.  So I would say a couple of things. 
First of all, these rules have yet to be fully published, and 
they will be, I hope, at some point. And then there will be 
plenty of time for further commentary.
    But I will say our belief strongly is that military-grade 
weapons will continue to be a function of State Department 
oversight. What will be at least contemplated for transfer over 
to Commerce would be the kinds of weapons that are readily 
available, you know, again, at any retail outlet here in the 
United States. And so the notion that the State Department 
should be regulating their export overseas strikes us as not 
hewing to the specific purpose that the State Department is 
supposed to accomplish with its authority.
    Senator Cardin. So if that is true, why did we labor over 
the Turkish sale and cancel it?
    Ambassador Kaidanow.  So I would say a couple of things.
    First of all, again, the assumption that items will 
transfer over to the Commerce Department does not mean that 
there will be no process for actually evaluating those sales.
    Senator Cardin. But that evaluation will not include 
Congress.
    Ambassador Kaidanow.  No. What I would say is that Commerce 
regularly comes to the State Department to ask our opinion on 
sales of that nature.
    Senator Cardin. But they do not come to Congress.
    Ambassador Kaidanow.  You come to us, though.
    Senator Cardin. But if Commerce is making the decision, 
this committee loses all oversight; that is, human rights and 
other considerations are gone if you do not have congressional 
review. Commerce does not review that. Yes, they may consult 
with you, but you are taking us out of the equation. And all 
three of you said congressional review is important.
    Ambassador Kaidanow.  Well, again, we believe strongly that 
the most important, most sensitive weapons, the ones that you 
would concern yourself with on a regular basis, again military-
grade weapons--that is the kind of thing where the State 
Department should continue to exercise its controls. Other 
kinds of weapons--it just seems as though--again, what we are 
doing is we are dispersing the State Department's effort over a 
number of different licensing arrangements where in theory we 
could be focusing on the kinds of things that we all know need 
to be--as a sensitive set of technologies need to be more 
appropriately regulated.
    Senator Cardin. And I would just remind you that the people 
of this country probably have focused more on what happened in 
Washington, D.C. against peaceful protesters and the 
extrajudicial killings in the Philippines. They are probably 
more knowledgeable about that than many of the other issues we 
have been talking about today. And they look to their elected 
officials to represent their views. If we are going to have a 
cooperative relationship, it appears to me this is a direct 
affront to congressional input that you all thought was 
important.
    Ambassador Kaidanow.  Again, Senator, we are happy to talk 
to you more, I think, about the categories of weapons that we 
are discussing and what the appropriate dividing line among 
those weapons are. But our strong feeling is that we want the 
State Department to do what we believe those regulations were 
intended to do, which is focus on highly sensitive technologies 
where either our commercial edge or our troops will be 
endangered overseas through the spread of those weapons.
    Senator Cardin. And sniper weapons do not fall into that 
category?
    Ambassador Kaidanow.  Again, we can talk a little bit more 
in a different setting about the specifics of each of those 
weapons, but I believe, you know, we have looked closely at the 
kinds of things we are proposing. And again, this is all still 
in that stage. And we are happy to talk to you more about it.
    Senator Cardin. Well, I am glad to hear that because I 
could be wrong about that. I am reading press accounts, not 
consultation with Congress, as to these decisions being made. I 
certainly have not been privy to any direct opportunity. I have 
expressed myself pretty clearly about this, but I have not seen 
any attempt to get the input of Members of Congress on this 
policy change. And considering that there are two very highly 
visible sales that are involved here, it does look like an end 
run around Congress.
    Ambassador Kaidanow.  We would welcome the chance to give 
you a further briefing on this--you and your staff--at any 
moment that you want.
    Senator Cardin. Thank you.
    On behalf of Chairman Corker and on behalf of myself, I 
thank all of the witnesses today for their testimony here 
today.
    The record will remain open till the close of business on 
Monday so that members can submit questions for the record. We 
would ask our witnesses to promptly respond to those questions 
for the record.
    And with that, the hearing stands adjourned.


    [Whereupon, at 12:00 p.m., the hearing was adjourned.]



                              ----------                              




              Additional Material Submitted for the Record

Responses to Additional Questions for the Record Submitted to Thomas H. 
        Harvey and General Charles Hooper by Senator Bob Corker

State Department Concurrence
    Question. Do you believe that State Department joint development 
and concurrence, as described in 10 USC 333, improves Title 10 security 
cooperation authorities by providing a broader foreign policy context 
for your efforts?

    Answer [Harvey]. Yes; the Defense Department supports the 
Department of State's leading role in not only setting the 
administration's course on foreign policy, but defining the shape and 
purpose of U.S. foreign assistance efforts. No official outside the 
State Department has been a stronger proponent for reinforcing State's 
primacy in performing these roles, and having adequate resources to 
execute them, than the Secretary of Defense. Secretary Mattis 
recognizes that success in addressing the nation's threats requires an 
integrated effort, where DoD's and State's resource allocation 
processes are tightly linked and mutually reinforcing.

    Question. Should concurrence of the Secretary of State be the 
standard practice for Title 10 security cooperation activities? What 
should be the exceptions, if any?

    Answer [Harvey]. Security cooperation encompasses many activities 
that primarily benefit U.S. forces, much of which requires coordination 
at various levels with the State Department through routine interagency 
processes. In cases where strong interagency coordination exists--
either under the auspices of the Chief of Mission or through the 
National Security Council (NSC) staff--additional and affirmative 
concurrence by a cabinet-level official may be redundant and a source 
of delay. In many cases, DoD authorities to train and equip partner 
nation forces have grown out of pressing operational demands identified 
by commanders on the ground that complement, but differ from, the 
broader political and diplomatic imperatives that inform State 
Department security assistance activities. Although some overlap in 
authorities and resources provides useful flexibility in tackling 
difficult security threats, the two Departments cannot and should not 
seek to recreate or mirror each other's security assistance programs.

    Question. Do you believe the requirement for Secretary of State 
concurrence slows down implementation of DoD assistance or interferes 
with operational priorities?

    Answer [Hooper]. No. Our colleagues at the State Department provide 
a critical and deliberate review of proposed assistance activities. The 
State Department helps ensure DoD's proposals support the broad range 
of U.S. national security and foreign policy objectives. DSCA has an 
excellent working relationship with the State Department based on open 
communication and frequent dialogue. We support timely State Department 
concurrence and will continue to work with our teammates in DoD and the 
State Department to streamline our processes. We all share a desire to 
advance our Departments' mutual commitment to closer synchronization 
without adversely affecting operational momentum on the ground or 
slowing support to the warfighter.

    Answer [Harvey]. DoD works closely with State Department 
counterparts to ensure that our efforts overseas support our diplomatic 
and national security objectives. However, not every scenario requires 
the high bar of concurrence. Requiring concurrence in certain cases 
would likely duplicate other, ongoing coordination mechanisms at the 
country-team level or through routine NSC staff coordination processes. 
There is further interagency collaboration (i.e., ``coordination'' or 
``consultation'') that occurs at various levels within both departments 
that occurs as a matter of routine and helps facilitate an effective 
implementation process.
Role of Geographic Combatant Commands
    Question. What is the role of the geographic combatant commands in 
developing and coordinating security sector assistance programs, both 
regionally and in individual countries? Is there adequate communication 
between the COCOMs, embassies, DSCA, and PM? How are the priorities of 
COCOMs adjudicated if they conflict with regional or country security 
assistance strategies?

    Answer [Hooper]. The Geographic Combatant Commands (GCCs) play an 
essential role in developing and coordinating security sector 
assistance (SSA) programs. GCCs develop SSA programs that support both 
their Theater Campaign Plans (TCP) and the interests of our interagency 
and foreign partners. In doing so, they coordinate extensively with 
U.S. Embassies in-country, the Service components, and our foreign 
partners. The GCCs serve as both a catalyst and clearinghouse to 
facilitate requirements. With the expansion and elevated role of SSA in 
shaping Theater program development, the GCCs require additional 
dedicated staff to support efforts of integrating security cooperation 
(SC) across the competitive space, contingency planning, and Theater 
Campaign Planning. DSCA's Integrated Regional Team matrixed structure 
is specifically aligned with the regional GCCs and is DSCA's key 
organizational conduit for daily interaction with the GCCs. An example 
of regular, deliberate communications among GCCs, DSCA, the State 
Department, the Military Departments, OSD Policy, and other key 
stakeholders is the DSCA-led, monthly GCC Focus meetings. These 
meetings are a forum to report on GCC priority programs and facilitate 
interagency collaboration, thereby increasing visibility and 
transparency in identifying program challenges and opportunities.

    Answer [Harvey]. The Geographic Combatant Commands (GCC) use 
security cooperation to develop operationally viable partnerships that 
will either avoid the need to commit U.S. forces or assist U.S. forces 
and the United States in achieving our national security objectives. 
This past spring, Secretary Tillerson and Secretary Mattis established 
an Assistant Secretary-level State-DoD Security Sector Assistance (SSA) 
Steering Committee to oversee a collaborative planning process that 
will identify top national security priorities and synchronize 
investments to maximize results. The SSA Committee's objective is to 
integrate planning and resourcing processes for a wide range of SSA 
programs. DoD is likewise revising security cooperation planning 
processes as a result of the reforms contained in the National Defense 
Authorization Act (NDAA) for Fiscal Year (FY) 2017 to provide better 
oversight of expenditures of taxpayer dollars and ensure that our 
efforts are more closely targeted and prioritized globally in accord 
with U.S. national security objectives. We are working with the GCCs to 
enhance their role as stakeholders for security cooperation activities 
and ensure they are working to integrate all available security 
cooperation tools within their AORs.
Assistance and Foreign Military
    Question. What is the impact of having to funnel Title 10 
assistance through the same implementation pipelines as FMS?

    Answer [Hooper]. Title 10 assistance relies on the same 
implementation ``pipelines'' (including use of the contracting 
workforce) as FMS, but the impact is minimal given the relatively small 
number of Title 10 cases compared to the higher volume of FMS cases. 
There are great efficiencies in sharing case development and 
contracting processes, as doing so often allows the U.S. Government to 
leverage existing contract vehicles and administrative personnel in the 
implementing agencies, which can lower both overhead and procurement 
costs and improve overall system responsiveness (i.e., delivery 
timelines). To minimize the overall impact of the combined volume of 
Title 10 and FMS cases on the workforce, DSCA and the implementing 
agencies balance the workload through sequenced program implementation. 
Of note, recent statutory changes provide that Title 10 Security 
Cooperation funds are available for obligation for up to two years, 
which enables further deconfliction in the acquisition processes.



                               __________


Responses to Additional Questions for the Record Submitted to Thomas H. 
    Harvey and General Charles Hooper by Senator Benjamin L. Cardin

State Concurrence on DoD Projects
    Question. Various NDAAs specify the minimum level of interaction 
with the Department of State and the Secretary of State, such as 
coordination or concurrence on various DoD security assistance 
projects. But that is the minimum; DoD can certainly exceed that level, 
correct? If the Secretary of Defense wants to make sure that the 
Secretary of State has concurrence on ALL security assistance-related 
programs, such as the Ukraine Security Assistance Initiative, or the 
provision of funds to foreign persons and governments in support of 
Special Operations counterterrorism and irregular warfare activities, 
he can do that, can't he? Why shouldn't he do that?

    Answer [Harvey]. DoD requires that all components work closely with 
their State Department counterparts to ensure that DoD efforts 
worldwide support the broader diplomatic and national security 
objectives of the United States. DoD currently exceeds the minimum 
levels of coordination and interaction required by law, ranging from 
coordination at the country-team level to routine, established NSC 
staff processes for the programs you mentioned. We do not believe that 
every DoD security cooperation authority requires the high bar of 
formal Secretary of State ``concurrence,'' especially when appropriate 
interagency ``coordination'' or ``consultation'' is already achieved at 
various levels within both departments through other mechanisms.

    Question. One of the rationales for arms sales to problematic 
countries is that it provides the U.S. with leverage and therefore 
influence. We recently saw such an instance with the withdrawal of the 
1600 Sig Sauer semi-automatic pistols to the Turkish Presidential 
Guard. Unfortunately, such action is not the norm. Can you provide us 
other instances in which the U.S. has leveraged security assistance to 
curtail bad behavior? Does the administration take into account a 
country's human rights behavior before considering providing security 
assistance?

    Answer [Harvey]. A country's human rights record is certainly an 
important factor the administration takes into account when considering 
the provision of security assistance. However, in most cases, U.S. 
security assistance is not of such a scale that threatening to withdraw 
it would reverse the policies or actions of other sovereign nations. In 
many cases, walking away from a security relationship over human rights 
or other concerns would simply remove the professionalizing influence 
that the U.S. military frequently exercises over partner militaries. 
U.S. security assistance is a key tool to incentivize other nations to 
work with us toward shared security objectives, and it does provide 
access to make the case for human rights with key leaders around the 
globe, but it largely does not provide us with a veto over the choices 
partner nations make with respect to their own domestic governance.
Human Rights
    Question. While security assistance allows the U.S. to provide 
critical aid to our allies and partners around the globe, it must also 
be used to facilitate the growth of human rights, civil institutions, 
and good governance. What is DoD doing to ensure that human rights is 
taken into consideration when granting security assistance? How is DoD 
leveraging security assistance to ensure that our partners are 
upholding human rights and not using this assistance to damage human 
rights within their respective countries? Can you provide us instances 
or examples of the United States using this leverage to promote human 
rights? What mechanisms are in place to identify certain risks that 
security assistance poses to the goals of promoting human rights, 
democracy, and civil institutions? How do we mitigate these risks in 
the short term? In the long term?

    Answer [Harvey]. DoD takes very seriously the need to encourage 
partner countries to prevent violations of human rights and to hold 
their security forces accountable for such violations; to strengthen 
compliance with the law of armed conflict and respect for civilian 
control over the military; to establish military justice systems and 
other mechanisms for accountability; and to prevent the use of child 
soldiers. DoD understands the importance of engagement with partner 
governments on these issues. DoD routinely provides a variety of human 
rights training to foreign security forces under several different 
authorities. The Combatant Commands also incorporate human rights 
training for foreign security forces in all joint operations and 
exercises. Commanders ensure that all operational and intelligence 
engagements with foreign security forces, and any engagements that 
involve ethical, political, military, legal, or human rights 
implications, contain a human rights component focusing on the 
responsibility of military and security forces to protect human rights.
Building Partner Capacity
    Question. Have DoD efforts to ``build partner capacity'' 
demonstrated substantial and lasting gains by recipient countries? In 
which countries, and by what standards does DoD assess such gains?

    Answer [Harvey]. Colombia provides an excellent case study of how 
the results of partner-nation political will and commitment, coupled 
with full U.S. interagency and congressional support, address shared 
transnational challenges. In January 2016, the Department issued its 
first policy on assessment, monitoring, and evaluation (AM&E) of 
security cooperation (DoD Instruction 5132.14, ``Assessment, 
Monitoring, and Evaluation Policy for the Security Cooperation 
Enterprise,'' January 13, 2017). We are working to implement that 
policy, in coordination with State Department, USAID, and other 
stakeholders based on best practices. This AM&E framework will not only 
provide the Congress and taxpayers a better return on investment, but 
allow DoD to consider how to most effectively apply limited resources 
against our greatest strategic priorities.
NATO Members with Russian Equipment
    Question. The new Russian Sanctions Act, by levying sanctions 
legislation Russia's defense industrial sector, has the potential to 
impact eastern NATO members that still rely on Russian equipment and on 
Russia for parts and component. Does the administration have a plan to 
help these countries transition away from Russian equipment? Has DoD 
considered offering loans or leases, in addition to FMF grants, to 
these countries to support their acquisition of U.S. higher-end 
systems?

    Answer [Harvey]. DoD considers all available tools when assessing 
how to meet individual partner-nation equipping needs. All of our 
Security Assistance/Security Cooperation activities focus on building 
interoperability with the United States and NATO and encourage our 
partners to procure U.S. and NATO interoperable systems as they seek to 
replace Russian equipment. The sanctions only compound the need to 
support our Allies in moving to replace Russian military equipment with 
U.S. and NATO interoperable systems.
Security Assistance to Afghanistan
    Question. Our security assistance for Afghanistan runs primarily 
through the Department of Defense. The Obama administration began a 
process in 2013 which would have transitioned this assistance from DoD 
to State, as U.S. forces were scheduled to draw down from the country. 
With the reversal in the Obama policy as well as a new South Asia 
strategy by the Trump administration, I understand that this process 
was stopped. Where does this discussion stand? Is it the Trump 
administration vision that security assistance in Afghanistan will 
continue to sit with the Defense Department? What do we lose in terms 
of policy coherence by having the Defense Department administer 
security assistance with little role or input by the State Department?

    Answer [Harvey]. DoD has no near-term plans to transition security 
assistance to Afghanistan from DoD's Afghanistan Security Forces Fund 
(ASFF) to Department of State authorities. DoD's ASFF provided more 
than $4.2 billion in fiscal year (FY) 2017 to support the Afghanistan 
National and Defense Security Forces (ANDSF). The FY 2018 ASFF 
appropriation is more than $4.3 billion. The ASFF accounts for nearly 
80 percent of the Afghanistan's total defense budget and is uniquely 
designed to address ANDSF needs, including police costs, salaries and 
incentive pay, fuel, infrastructure, and other operational support. We 
assess that ASFF remains the most appropriate funding source to support 
the ANDSF based on the magnitude of current defense requirements in 
Afghanistan. In addition, we assess that securing adequate funding in 
the Department of State budget to support ANDSF requirements could 
result in costly tradeoffs in the State Department's security 
assistance and civilian assistance accounts and other administration 
priorities. The Department of State has the authority to concur or not 
concur in all ASFF programs to ensure that activities are consistent 
with U.S. foreign policy.
Excess Defense Articles
    Question. One method of providing security assistance is through 
the provision of Excess Defense Articles (EDA). It is unclear, however, 
how rational the system of EDA is; how EDA is prioritized by country, 
by those countries' needs, and by equipment available. What 
improvements do you think need to be made to the EDA program?

    Answer [Harvey]. The EDA program aligns available excess equipment 
with a country request based on the country's requirements. If demand 
(requirements) exceeds the available quantity of equipment, an 
interagency meeting is convened with representatives from the Defense 
Security Cooperation Agency (DSCA), the State Department (PM/RSAT), the 
Joint Staff (J-5), and the Office of the Under Secretary of Defense for 
Policy to determine the priority for allocation of such equipment based 
on U.S. foreign policy goals, U.S. national interests, and the 
potential for sustainability and supportability of the planned 
recipient country. In terms of improvements, an amendment to Section 
516(f)(1) of the FAA to increase the $7 million original acquisition 
dollar-value threshold for the congressional notification requirement 
and remove the significant military-equipment requirement from the 
notification requirement (or place a minimum dollar threshold on it) 
would significantly streamline the processing of many small-scale 
items. The result of the current threshold is that 85 percent of all 
EDA requests must be notified. For example, if a single armored wrecker 
is included with a request for 50 non-armored wheeled vehicles and the 
total original acquisition value is $3 million, we must present a 30-
day notification before authorizing the transfer.
Lease Authorities for Excess Naval Vessels
    Question. The provision of excess naval vessels is a powerful and 
important foreign policy tool; as such, for vessels of 3,000 tons 
displacement, an act of Congress is required for the sale or grant of 
such vessels to foreign recipients. Unfortunately, this process has 
been handicapped by the selection of recipient countries, many of which 
are, at best, problematic partners to the United States, or are 
unreliable partners and sources of instability and threats to U.S. 
interests. The Navy could, however, provide such vessels on a longterm 
lease basis, with the added benefit of the retention of U.S. title 
giving the U.S. authority in determining that these vessels are used in 
ways supportive of U.S. foreign and security interests. Are Title 10 
lease authorities sufficient to conclude such leases? What policy 
impediments exist for such a program?

    Answer [Harvey]. Title 10 leases (10 U.S.C. 2667) are not 
appropriate for leases to a foreign government as Section 61 of the 
Arms Export Control Act explicitly states that DoD may not use 10 
U.S.C. 2667 to lease any defense articles to a foreign government or 
international organization. Furthermore, 10 U.S.C. 7307 requires 
legislation to dispose of vessels over 3,000 tons displacement, 
including by lease. If legislation were enacted to allow for vessel 
leases, the leases would occur through the authority outlined in 
Chapter 6 of the Arms Export Control Act (22 U.S.C. 2976), which limits 
any lease to a term of five years. The cost of refurbishment to sail-
worthiness, training, support, and sustainment (estimated at $85-$100 
million for a sale with three years of sustainment), may be too cost 
prohibitive for any partner to consider without a permanent transfer, 
especially since Title 22 leases may be revoked at any time with 
limited notice.
Security Cooperation Officer Perspective
    Question. You bring a unique perspective the job of Director of 
DSCA, in that you have served as a Security Cooperation Officer in the 
field. Understanding that you have just assumed your new position, 
could you share your observations of the benefits and problems of US 
security assistance as a former SCO, and how those insights might be 
used to improve the provision of security assistance, particularly the 
FMS process?

    Answer [Hooper]. Security Cooperation is a pillar of U.S. foreign 
policy. DSCA's security cooperation programs strengthen bilateral 
relationships between the United States and its foreign partners by 
enhancing military-to-military cooperation, enabling greater 
interoperability, contributing to shared security goals through the 
development of partner capabilities, and providing U.S. forces with 
peacetime and contingency access. Security cooperation also provides 
key opportunities to build personal relationships that underpin our 
national security and foreign policy. DSCA has identified five key 
challenges to expediting the FMS process: The first challenge is 
working with partners to define requirements. DSCA needs to work 
closely with partners to identify capabilities for specific mission 
sets. The second challenge is non-standard, non-program-of-record 
requests. Although these items may be an appropriate fit to meet 
partner capability needs and to support our industrial base, the 
process to meet these acquisitions is often time consuming. The third 
challenge is increased demand by our foreign partners for transfer of 
advanced technology. This demand amplifies the need for U.S. defense 
systems to be designed with exportability in mind. The fourth challenge 
is balancing the complexities of politics and foreign policy as they 
relate to security cooperation programs. The final challenge is 
supporting our defense industrial base's ability to fulfill 
requirements identified by foreign partners. DSCA is examining these 
five challenges in conjunction with others in the U.S. Government and 
with industry and international stakeholders, as appropriate, to 
determine how to address these issues and make our efforts more 
efficient, effective, agile, and responsive.
Improving Foreign Government Procurement Processes
    Question. One of the reasons for delays in the FMS process is that 
client countries often have only a vague idea of what capability they 
want to buy; months can be expended in working with the various parts 
of a foreign government to better define what specific weapon 
capabilities they need and can afford, as well as what we are likely to 
consent to provide. Are there better ways to improve this process? 
Should the US provide more professional training of foreign acquisition 
officials in order to have a more productive relationship in the 
procurement process?

    Answer [Hooper]. In conjunction with Geographic Combatant Commands' 
(GCC) staff and U.S. Embassy Security Cooperation Officers (SCOs) in-
country, DSCA works with partner nations, upon their request, to inform 
development and refinement of their requirements early in their 
acquisition process. To improve this process, DoD is taking steps to 
use existing tools more effectively. Such tools include Expeditionary 
Requirements Generation Teams (ERGT), which deploy subject matter 
experts to augment GCC staff and SCOs in support of security 
cooperation planning and development, Ministry of Defense Advisor 
(MoDA) teams, and subject matter expert exchanges. In addition, as part 
of the security cooperation workforce reform, DSCA is taking steps to 
ensure the community is properly trained to assist partners in 
requirements development. DoD also offers numerous training 
opportunities for foreign partners in traditional classroom 
environments, such as the Defense Acquisition University and the 
Defense Institute of Security Cooperation Studies. The curriculum 
offered in these schoolhouses assists foreign acquisition professionals 
in understanding planning and resource processes, requirements 
generation, budgeting, acquisition, and sustainment.
Expanded Leasing Ability
    Question. FMS and FMF are both effective US programs to build 
partner countries' military capabilities. However, both are often 
limited by funds available, both country funds and US grant assistance, 
as well as production timelines. Should the US expand its ability to 
lease equipment to partner countries, either to supplement the FMS and 
FMF process, or to provide an interim capability while their FMS 
purchases are being produced?

    Answer [Hooper]. Chapter 6 of the Arms Export Control Act provides 
the authority to lease defense articles already in DoD stocks if there 
are compelling foreign policy and national security reasons to provide 
the articles via lease rather than by a sale. The lease is subject to a 
determination that the articles will not be needed for public use 
during the lease period. It is not uncommon for the United States to 
lease an interim capability to a foreign partner in advance of the 
delivery of an item being purchased through FMS. Currently, DoD does 
not have the authority to lease defense articles not already in DoD 
stocks, or to repurpose articles in DoD stocks that are intended for 
public use. DSCA is exploring whether an expanded lease authority would 
be an effective supplement to existing security cooperation 
authorities.



                               __________


Responses to Additional Questions for the Record Submitted to Thomas H. 
      Harvey and General Charles Hooper by Senator Robert Menendez

Ukraine
    Question. The Ukraine Assistance Initiative permits the Secretary 
of Defense to provide up to $300 million in FY2016 and $350 million in 
FY 2017 for security assistance and intelligence support, including 
training, equipment, logistics support, supplies and services to 
military and other security forces of Ukraine. How do you plan to 
support Ukrainian forces who continue to face Russian aggression and 
occupation?

    Answer [Hooper]. DCSA, in coordination with the U.S. European 
Command, the Department of State, and other U.S. departments and 
agencies, provides significant defensive capabilities to the 
Ukrainians. We continue to collate and finalize proposals from the 
subcommittees of the Multinational Joint Commission (MJC) to support 
Ukraine in Fiscal Year 2018. Some items include counter-artillery/
mortar radars, armored vehicles, night-vision devices, optics, personal 
protective equipment, thermal imagers, ambulances, medical equipment 
and medical training, emergency response and casualty triage equipment, 
counter-Russian propaganda training and equipment, airport beacons, 
radars, and airfield equipment to bring Staro-Konstantinov to the 
standards of an ``all-weather'' airbase, maritime sonar systems, dive 
gear, and underwater vehicles. Furthermore, we assist in the 
development of institutions for the Ukrainian Armed Forces, such as 
military police training, forensics training, counterterrorism 
training, and special forces individual combat training. The National 
Guard assists in training Ukrainian National Guard brigades battalions 
forward deployed. In addition, we are assisting in developing a 
stronger Non-Commissioned Officer (NCO) corps, including by providing a 
training academy to further the education of future NCO leaders. The 
MJC will continue to evaluate and prioritize the Ukrainian capability 
gaps to ensure we provide the most effective equipment and training 
necessary to deter aggressive Russian actions.

    Answer [Harvey]. DoD will continue to leverage the Ukraine Security 
Assistance Initiative (USAI) as a means of training and equipping 
Ukrainian forces.
Lebanon
    Question. The administration's budget proposed slashing FMF to 
Lebanon. Do you see value in continuing to support the Lebanese Armed 
Forces? Are you concerned about increasing Hezbollah presence within 
the forces? What implications will this have for U.S. national 
security, security of our allies, and overall regional stability?

    Answer [Hooper]. The Lebanese Armed Forces (LAF) is a unifying 
entity within Lebanon and a valuable investment that advances U.S. 
interests in the region. The LAF has served as a bulwark against 
Lebanese Hizballah (LH) influence, defeated ISIS along the Syrian 
border, safeguarded Lebanon's borders, and maintained security within 
Lebanon. The LAF continues to uphold its independence from party 
politics,. The LAF serves as a counterbalance to LH influence, which 
challenges LH's efforts to improve its legitimacy within the country. A 
more capable LAF would allow Lebanon to exercise greater sovereignty 
throughout the nation.

    Answer [Harvey]. DoD is exploring ways to support the Lebanese 
Armed Forces (LAF) in a manner consistent with our approach to shared 
security challenges in the U.S. Central Command area of responsibility. 
A reduction of Foreign Military Financing (FMF) funding available for 
Lebanon would require a ``relook'' of U.S. activities. Secretaries 
Tillerson and Mattis established a Security Sector Assistance (SSA) 
Steering Committee to review such cases and programs where a reduction 
in one account or another might impact broader U.S. national security 
interests.
Bahrain
    Question. Last year, owing to serious concerns about human rights 
conditions in the country, the United States restricted the sale of 
weapons to Bahrain. This administration seems to have abandoned that 
policy. Have you seen an improvement in the human rights situation in 
Bahrain? Do you believe it is in the national security interest of the 
United States to continue using available levers to promote human 
rights?

    Answer [Hooper]. The United States continues to monitor the 
situation and urge the Government of Bahrain to continue to build an 
inclusive society that promotes human rights and political 
opportunities for all parties. Promoting human rights improves 
stability within partner nations throughout the world, which is 
directly linked to the national security interests of the United 
States. The United States relies on all instruments of national power, 
including diplomatic, information, military, and economic, to change 
the behavior of a partner country to promote human rights.

    Answer [Harvey]. Over the last year, we have noted new and 
continued restrictions on the existence and operation of political 
societies; restrictions on free expression, assembly, and association; 
and lack of due process in the legal system. We have repeatedly voiced 
concern about these and other issues and urged the Government of 
Bahrain, at the highest levels, to reinvigorate its reform program, 
make the political system more inclusive, and rebuild trust between the 
government and citizens. We will continue to urge the Government of 
Bahrain to take steps to ensure inclusive elections in 2018 and to 
advance reform efforts for the benefit of Bahrain's longterm security 
and our mutual interests in regional stability. Enhancing our security 
cooperation with Bahrain does not diminish the enduring emphasis we 
place on human-rights issues.
Egypt
    Question. Last year, the GAO issued a report recommending increased 
end use monitoring of security equipment transferred to Egyptian 
security forces. What steps are you taking to improve monitoring, 
particularly in the Sinai? The same report indicated that the USG 
completed ``some, but not all human rights vetting required by State 
policy before providing training or equipment to Egyptian security 
forces.'' What steps are you taking to ensure that the United States is 
complying will all applicable human rights vetting? How do you assess 
our national security gains in this context?

    Answer [Hooper]. With regard to the recommendations made in the GAO 
report, those that relate to end-use monitoring are focused on direct 
commercial sales (DCS), which for compliance reporting fall under the 
State Department's Blue Lantern program. Those that relate to human 
rights are focused on the State Department's vetting process and 
State's INVEST system. In both of these cases, we defer to our 
colleagues at the State Department. With regard to Egypt and the 
``efense Department's Golden Sentry end-use monitoring program, 
inventory reports of items transferred to Egypt and designated as 
``enhanced'' reflect that 100 percent of those items have been 
accounted for as of August 2017. These reports are inclusive of all 
enhanced items located throughout Egypt, including those located in the 
Sinai.

    Answer [Harvey]. The United States and Egypt have a mutual interest 
in countering terrorism, particularly in the Sinai, and U.S. security 
assistance is a tool to strengthen the Egyptian Armed Forces' 
counterterrorism capacity. To help ensure that U.S.-origin equipment is 
deployed more effectively in accordance with U.S. legal requirements, 
the 2016 GAO report made five recommendations to the Department of 
State. The Department of State has subsequently worked with U.S. 
Embassy Cairo and, specifically, the Office of Military Cooperation 
(OMC)-Cairo to improve equipment vetting. The Government of Egypt has 
responded to senior Department of State and Department of Defense 
requests for greater access to the Sinai by approving official travel 
to the Multinational Force and Observers facilities, Egyptian Second 
Field Army Headquarters, and development projects near the Suez Canal. 
The Departments of State and Defense are seeking further access to 
areas of operational significance in the Sinai to understand better the 
ISIS threat and Egypt's use of U.S.-origin equipment in Sinai 
counterterrorism operations. U.S. military-to-military cooperation with 
Egypt is critical to achieve shared security interests and an important 
conduit to message the importance of respect for human rights. The 
Departments of State and Defense strictly enforce policies and 
practices on appropriate end-use of U.S.-origin defense articles and 
training to ensure compliance with human rights standards. OMC-Cairo 
now maintains paper copies of International Vetting and Security 
Tracking (INVEST) approvals for a five-year period and waits for INVEST 
approval before issuing travel orders or providing funding for Egyptian 
forces' participation in U.S.-funded training.
Colombia
    Question. We have seen an alarming rise in coca production in 
Colombia over the past year. We have made tremendous investments into 
supporting Colombian security services in fighting narcotrafficking and 
combatting criminal networks. In fact, our joint efforts have been so 
successful that Colombia's security services now train other partner 
forces throughout the region. Combatting international criminal 
networks surely requires cooperation from allies. Earlier this month 
the President said he ``seriously considered'' decertifying Colombia as 
a partner in the war against drugs because of this alarming rise. What 
implications would that have on our security assistance and cooperation 
with Colombia? Would such a decertification ultimately hamper the 
ability of the United States to collaborate with Colombian security 
forces with whom we work on combatting narcotraffickers?

    Answer [Harvey]. Colombia is an excellent case study where partner 
nation commitment, together with full U.S. support, can achieve lasting 
results. The rise of coca production is alarming, and we will work 
closely with the State Department and the Congress to assess the impact 
the decision to decertify would have on our ability to partner with 
Colombia.

    Answer [Hooper]. U.S. security assistance is restricted for 
countries determined by the President to be Major Drug Transit or Major 
Illicit Drug Producing that have ``failed demonstrably'' to take 
certain counternarcotics efforts. U.S.-Colombia cooperation is strong, 
and Colombia remains a critical partner in the region. It has been a 
tremendous friend on U.S. initiatives inside and outside of its 
borders. A ``failed demonstrably'' designation has the potential to 
undermine this relationship at large. Without a national security 
waiver, it would be more difficult for the United States to engage with 
and support Colombian security forces. This is especially true 
regarding U.S. support of Colombian efforts to implement the peace 
accord and manage its internal security, two goals that are consistent 
with the whole-of-government approach the United States promotes for 
Colombia's counterdrug efforts. Absent a waiver, a ``failed 
demonstrably'' designation would restrict U.S. capacity to provide 
security assistance to Colombia. Over the last five years, Colombia has 
received an average of $28.6 million in Foreign Military Financing 
(FMF) grants per year and an average of $1.4 million in International 
Military Education and Training (IMET) funds per year. FMF has 
supported the UH-60 Blackhawk and fixed-wing aircraft, secure 
communications, maritime and riverine interdiction vessels, and a wide 
range of programs for the ground forces. All of these programs were 
instrumental for Colombia's battle with the FARC. Halting our support 
would have a significant impact on the Colombian military's ability to 
address the ongoing trafficking threat and post-accord security-
consolidation efforts that aim to extend the reach of the Colombian 
Government. IMET courses focus on institutionalizing respect for human 
rights and the rule of law and enhancing the leadership and technical 
ability to protect national territory and maritime borders against 
transnational threats. IMET courses include professional military 
education courses, language training, technical training, and enlisted 
and officer development courses.



                               __________


Responses to Additional Questions for the Record Submitted to Thomas H. 
        Harvey and General Charles Hooper by Senator Todd Young

    Question. The Special Inspector General for Afghanistan 
Reconstruction (SIGAR) released their report on September 21 entitled, 
``Reconstructing the Afghan National Defense and Security Forces: 
Lessons from the U.S. Experience in Afghanistan.'' This report 
addresses how the Department of State, Department of Defense, and 
others developed and executed security assistance programs in 
Afghanistan. The report notes that the U.S. ``devoted over $70 billion 
(60 percent) of its Afghanistan reconstruction funds to building the 
ANDSF through 2016, and continues to commit over $4 billion per year to 
that effort''--yet major problems persist. The SIGAR report features 12 
key findings, 11 lessons, and a number of recommendations, including 
recommendations for State and DoD. In light of this tremendous taxpayer 
investment and the national security interests at stake, I am 
interested to hear your response to the report and its recommendations. 
Have you reviewed this report, and do you have any specific reactions 
you would like to share with this committee?

    Answer [Harvey]. OSD (Policy) worked closely with SIGAR on this 
report, which incorporates many of DoD's insights gained from 
conducting policy oversight of the effort to develop and sustain the 
Afghan National Defense and Security Forces (ANDSF). As part of the 
President's new South Asia Strategy, DoD is already applying some of 
SIGAR's key Afghanistan-specific lessons learned and recommendations, 
such as expanding the train, advise, and assist (TAA) mission down to 
the tactical level; looking at ways to improve selection and training 
of advisors before they deploy; and increasing advisory capacity in 
Afghan National Army (ANA) military academies and training centers. In 
addition, the new strategy continues to place a premium on on-going 
efforts to protect U.S. taxpayers' investment in the ANDSF that are 
consistent with other SIGAR recommendations, such as improving ANDSF 
oversight and accountability systems and improving technical oversight 
of U.S. contracts for maintenance support to ANDSF equipment.

    Answer [Hooper]. I have reviewed the findings, lessons, and 
recommendations in the report and DSCA has addressed the areas under 
our purview. I want to thank SIGAR for its comprehensive and insightful 
work. As the Director of DSCA, I am heavily invested in the success of 
the security cooperation mission in Afghanistan and I am committed to 
improving our support continuously. The successful execution of 
Afghanistan Security Forces Fund program remains a significant 
priority. Further, the DSCA Ministry of Defense Advisor (MoDA) team 
works closely and consistently with the Resolute Support Mission 
Headquarters to review and update the MoDA training. DSCA constantly 
reviews the program of instruction in general, and the training 
vignettes in particular, for relevance to current operational 
conditions and mission requirements.

    Question. Have you reviewed the transcript from the July 18, 2017 
Senate Foreign Relations Committee hearing entitled, ``Four Famines: 
Root Causes and Multilateral Action Plan''? If not, please do so.

    Answer [Harvey]. Yes, I have reviewed the transcript. I agree that 
the welfare of the 20 million people facing starvation in these four 
countries is of utmost concern and importance. DoD follows these 
developments closely. With our interagency partners, the international 
community, and the host nations, we are working to address the root 
causes of these crises in order to improve the challenging 
circumstances for these populations.



                               __________


Responses to Additional Questions for the Record Submitted to Thomas H. 
        Harvey and General Charles Hooper by Senator Rob Portman

Value of Security Cooperation to the U.S. Military and Defense-
        Industrial Base
    Question.  There has been much discussion about the impact of human 
rights consideration on U.S. security assistance--and rightly so--but I 
also think it's important to publicly discuss the value to the U.S. 
military in developing close military-to-military relationships with 
strategic partners around the world. From an operational planning 
perspective, what is the benefit of having regional partners trained 
and equipped according to U.S. standards?

    Answer [Hopper]. When partners are trained and equipped according 
to U.S. standards, they become more interoperable with U.S. forces. 
During contingencies, interoperable partners are more effective in 
coordinating actions with U.S. forces and, where necessary, have the 
capability to share equipment and ammunition during battle. Finally, 
partners who are trained and equipped to U.S. standards are often 
postured for long-term cooperative relationships with the United 
States, seek a steady rhythm of military-to-military engagements with 
the United States, and apply national funds to purchase U.S. equipment 
and spare parts, which facilitates a healthier U.S. defense industrial 
base.

    Answer [Harvey]. DoD maintains generational relationships through 
our defense partnerships with countries globally. Because of these 
relationships and our global posture and presence, no other country, 
department or agency has the same ability to influence positively other 
partner nation security forces. Interoperability is key to the success 
of U.S. warfighters and the ability of the United States to deter, or 
prevail if necessary, in conflict. DoD carefully considers 
interoperability with our allies and partners when planning security 
cooperation investments and developing our own forces.

    Question. There has been much discussion about the impact of human 
rights consideration on U.S. security assistance--and rightly so--but I 
also think it's important to publicly discuss the value to the U.S. 
military in developing close military-to-military relationships with 
strategic partners around the world. How do increased interoperability 
and shared tactics, techniques, and procedures (TTP) between the U.S. 
and regional partners impact DoD assessments about the costs and 
requirements of responding to contingencies around the world?

    Answer [Hooper]. Today's complex security environment often 
requires a long-term approach with the military operating as part of a 
comprehensive, whole-of-government effort, which includes international 
partners, to facilitate unified action. Synchronizing our military 
actions with the many stakeholders, both interagency and multinational, 
is key to addressing threats initiated by adversaries to challenge 
regional and global security. In an era of inclusiveness with 
multinational partners, the United States benefits when international 
partners share perspectives and support, and when the United States 
reciprocates. Best practices include sharing plans; tactics, 
techniques, and procedures (TTP); and capabilities. Shared TTPs are 
most beneficial when the United States is operating with partners with 
similar equipment. When the equipment is U.S.-origin, the benefits are 
multifaceted. From a fiscal perspective, selling services and 
capabilities through FMS contributes to U.S. DoD program stability, 
while reducing the cost of research and development and long-term 
sustainment for the international partner. FMS relationships are 
reinforced with interactions spanning several years, and often decades, 
as military teams train and exercise together and the defense equipment 
is sustained and upgraded in tandem with the United States. FMS can 
therefore lead to unit cost reductions in DoD's domestic procurements. 
This can be realized in the form of cost sharing through cooperative 
development and cost savings as a result of economies of scale.

    Answer [Harvey]. DoD maintains generational relationships through 
our defense partnerships with countries globally. Because of these 
relationships and our global posture and presence, no other country, 
department or agency has the same ability to influence positively other 
partner nation security forces. Interoperability is key to the success 
of U.S. warfighters and the ability of the United States to deter, or 
prevail if necessary, in conflict. DoD carefully considers 
interoperability with our allies and partners when planning security 
cooperation investments and developing our own forces.

    Question. There has been much discussion about the impact of human 
rights consideration on U.S. security assistance--and rightly so--but I 
also think it's important to publicly discuss the value to the U.S. 
military in developing close military-to-military relationships with 
strategic partners around the world. Can you please talk about the role 
Foreign Military Sales can play in sustaining critical U.S. defense-
industrial base capabilities, especially during gaps in production 
cycles for DoD contracts?

    Answer [Hooper]. Foreign Military Sales (FMS) play a critical role 
in supporting U.S. defense-industrial base capabilities. A specific 
example can be found in examining the recent history of the Boeing F/A-
18E/F Super Hornet and E/A-18G Growler production line. As of 2015, 
Boeing planned to close down the Super Hornet's St. Louis production 
line by 2017 after fulfilling an order of 15 Super Hornet fighter 
aircraft for the U.S. Navy. At that time, the Navy was addressing how 
it would contend with the projected strike-fighter shortfall it would 
face in the 2020s, but had not made any commitments for further 
purchases. With fatigue issues affecting the heavily deployed current 
F/A-18 fleet, and delays in fielding the carrier-capable F-35C, the 
Navy needed options to ensure that it could sustain its robust strike-
fighter capability, but Boeing would not maintain a production line 
solely for a small-scale aircraft buy. At that time, Australia was the 
only international Super Hornet FMS customer. However, Kuwait soon 
expressed interest in the Super Hornet as a replacement for its aging 
legacy F/A-18 C/D fleet. With the anticipation of a new FMS order, 
industry was presented the opportunity to extend the production line 
and demonstrate the capability to fulfill potential sales. This 
extension presented additional options for the U.S. Navy to sustain and 
enhance its fleet of currently fielded strike-fighter and electronic 
aircraft. The bridge that FMS for Kuwait and other potential customers 
has provided for the F/A-18 E/F production line has made the F/A-18 E/F 
a viable option to satisfy future U.S. DoD and international fighter 
aircraft requirements. Had the production line closed this year, as 
projected, after fulfilling the original U.S. DoD program requirements, 
Boeing would have had to divest significant strike-fighter intellectual 
and industrial capital, which would take years and significant 
investment to regenerate. Instead, in addition to new aircraft 
deliveries, upgrades to increase range, improve weapons and sensor 
capabilities, and lower detectability can now be offered to current and 
future partners. Additionally, further production and development of 
the F/A-18 E/F, for both the U.S. Navy and FMS, ensure that the U.S. 
fighter industrial base continues to be diversified beyond a single 
manufacturer or platform and realizes the cost-benefit of economies of 
scale by increasing number of sales.

    Answer [Harvey]. Foreign Military Sales programs and all DoD 
security cooperation ultimately benefit the U.S. taxpayer--whether by 
supporting the defense industrial base or by ensuring the continued 
safety and security of the homeland by sharing the responsibility for 
pursuing global security by, with, and through our allies and partners.
Lessons Learned from Ukraine Security Assistance Efforts
    Question. General Hooper, in your statement you correctly noted the 
ongoing challenges DSCA (Defense Security Cooperation Agency) faces in 
shortening the delivery timeline for security assistance provided 
through Foreign Military Sales (FMS) cases. Because the previous 
administration chose to restrict the type of assistance that could be 
provided to Ukraine using expedited Executive authorities, a lot of the 
U.S. military assistance had to be provided through statutory 
authorities like the Foreign Military Sales (FMS). The silver lining to 
this was that the inefficiencies in the FMS process were much easier to 
see. I'm interested in your thoughts on what additional authorities or 
mechanisms you think would helpful in streamlining this process--not 
just in Ukraine but around the world. There are a number of special 
financing mechanisms designed to help expedite funding to implement FMS 
cases such as the Special Defense Acquisition Fund, Third Party 
Financing, and others. Can you comment on the usefulness of these 
authorities? Are there any other particular mechanisms you find 
especially helpful? Are there any additional authorities you think 
would be helpful?

    Answer [Hooper]. The Special Defense Acquisition Fund (SDAF) is an 
important security-cooperation authority since it remains the only 
authority available to the administration to purchase defense articles 
and services in anticipation of their future transfer. The SDAF results 
in faster deliveries once FMS agreements are signed, and it helps to 
enhance U.S. force readiness by reducing the need to divert assets from 
U.S. forces when urgent foreign needs arise. Since the SDAF was 
recapitalized in 2012, the Department of Defense, with Department of 
State concurrence, has used it to purchase more than $700 million worth 
of defense articles and services, which have been transferred to more 
than 45 countries worldwide, including Afghanistan, Iraq, Lebanon, 
Ukraine, and Tunisia. On average, the articles and services purchased 
by the fund were delivered to partner nations six to twelve months 
faster than would have otherwise been possible. Without question, the 
SDAF has proven to be a useful security-cooperation authority. In 2017, 
however, section 114(c)(3) of title 10, U.S. Code, was amended to 
require that the Department of Defense purchase $500 million worth of 
precision-guided munitions each fiscal year before buying any other 
defense articles or services. Because DoD is only able to execute about 
$350 million in new buys each year, this law has precluded DoD from 
using the SDAF to purchase any defense articles or services other than 
precision-guided munitions. The administration is requesting that the 
law be amended in FY 2018 to allow DoD to use the SDAF to purchase 
other defense articles and services that may be required by our 
international partners in an expedited manner. Regarding additional 
authorities, at this time we believe we have sufficient authorities to 
provide assistance of the type discussed here.

    Question. General Hooper, in your statement you correctly noted the 
ongoing challenges DSCA (Defense Security Cooperation Agency) faces in 
shortening the delivery timeline for security assistance provided 
through Foreign Military Sales (FMS) cases. Because the previous 
administration chose to restrict the type of assistance that could be 
provided to Ukraine using expedited Executive authorities, a lot of the 
U.S. military assistance had to be provided through statutory 
authorities like the Foreign Military Sales (FMS). The silver lining to 
this was that the inefficiencies in the FMS process were much easier to 
see. I'm interested in your thoughts on what additional authorities or 
mechanisms you think would helpful in streamlining this process--not 
just in Ukraine but around the world. Would providing multi-year 
obligation authority standard in Congressional authorizations and 
appropriations for security assistance activities be helpful?

    Answer [Hooper]. Yes, making multi-year obligation authority 
standard in congressional authorizations and appropriations for 
security assistance activities would be very helpful. DSCA greatly 
appreciates the Committee's efforts and willingness to provide cross-
fiscal year obligation authority. Building partner capacity and 
capabilities is a multi-year effort involving pre- and post-equipment 
delivery training that can stretch up to four years from the first 
obligation of funds. Providing enhanced multi-year obligation authority 
would increase the return on taxpayer investment by helping DoD better 
sequence activities in a dynamic environment.



                               __________



                                  [all]
</pre></body></html>
